<html>
<title> - THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY AND NATIONAL PARKS</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]




   THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY AND NATIONAL PARKS

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 10, 2003

                               __________

                           Serial No. 108-19

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

83-959              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
DAN BURTON, Indiana                  HENRY A. WAXMAN, California
CHRISTOPHER SHAYS, Connecticut       TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
MARK E. SOUDER, Indiana              CAROLYN B. MALONEY, New York
STEVEN C. LaTOURETTE, Ohio           ELIJAH E. CUMMINGS, Maryland
DOUG OSE, California                 DENNIS J. KUCINICH, Ohio
RON LEWIS, Kentucky                  DANNY K. DAVIS, Illinois
JO ANN DAVIS, Virginia               JOHN F. TIERNEY, Massachusetts
TODD RUSSELL PLATTS, Pennsylvania    WM. LACY CLAY, Missouri
CHRIS CANNON, Utah                   DIANE E. WATSON, California
ADAM H. PUTNAM, Florida              STEPHEN F. LYNCH, Massachusetts
EDWARD L. SCHROCK, Virginia          CHRIS VAN HOLLEN, Maryland
JOHN J. DUNCAN, Jr., Tennessee       LINDA T. SANCHEZ, California
JOHN SULLIVAN, Oklahoma              C.A. ``DUTCH'' RUPPERSBERGER, 
NATHAN DEAL, Georgia                     Maryland
CANDICE S. MILLER, Michigan          ELEANOR HOLMES NORTON, District of 
TIM MURPHY, Pennsylvania                 Columbia
MICHAEL R. TURNER, Ohio              JIM COOPER, Tennessee
JOHN R. CARTER, Texas                CHRIS BELL, Texas
WILLIAM J. JANKLOW, South Dakota                 ------
MARSHA BLACKBURN, Tennessee          BERNARD SANDERS, Vermont 
                                         (Independent)

                       Peter Sirh, Staff Director
                 Melissa Wojciak, Deputy Staff Director
              Randy Kaplan, Senior Counsel/Parliamentarian
                       Teresa Austin, Chief Clerk
              Philip M. Schiliro, Minority Staff Director

   Subcommittee on Criminal Justice, Drug Policy and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
NATHAN DEAL, Georgia                 ELIJAH E. CUMMINGS, Maryland
JOHN M. McHUGH, New York             DANNY K. DAVIS, Illinois
JOHN L. MICA, Florida                WM. LACY CLAY, Missouri
DOUG OSE, California                 LINDA T. SANCHEZ, California
JO ANN DAVIS, Virginia               C.A. ``DUTCH'' RUPPERSBERGER, 
EDWARD L. SCHROCK, Virginia              Maryland
JOHN R. CARTER, Texas                ELEANOR HOLMES NORTON, District of 
MARSHA BLACKBURN, Tennessee              Columbia
                                     CHRIS BELL, Texas

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
        Christopher A. Donesa, Staff Director and Chief Counsel
                        Nicolas Coleman, Counsel
                         Nicole Garrett, Clerk


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 10, 2003...................................     1
Statement of:
    Aguilar, David, Chief Patrol Agent, Tucson Sector, U.S. 
      Border Patrol; Dom Ciccone, Regional Chief, National 
      Wildlife Refuge System, Region 2, U.S. Fish and Wildlife 
      Service; William Wellman, park supervisor, Organ Pipe 
      Cactus National Monument, National Park Service; Hugh 
      Winderweedle, Port Director, Lukeville Port of Entry, U.S. 
      Customs Service; and James Woolley, Assistant Special Agent 
      in Charge, Tucson Division Office, Drug Enforcement Agency.    30
    Manuel, Edward D., chairman, Tohono O'Odham Nation; and 
      Joseph Delgado, assistant chief of police, Tohono O'Odham 
      Police Department..........................................    10
    Salcido, Fern, Tohono O'Odham Nation legislative council 
      member; Augustine Toro, chairman, Chukut Kuk Boundary 
      Committee, Tohono O'Odham Nation; Colonel Ben Anderson, 
      U.S. Army (retired); Jennifer Allen, Border Action Network; 
      and Reverend Robin Hoover, president, Humane Borders, 
      Inconsistent...............................................    95
Letters, statements, etc., submitted for the record by:
    Aguilar, David, Chief Patrol Agent, Tucson Sector, U.S. 
      Border Patrol, prepared statement of.......................    33
    Allen, Jennifer, Border Action Network, prepared statement of   117
    Anderson, Colonel Ben, U.S. Army (retired); Jennifer Allen, 
      Border Action Network, prepared statement of...............   105
    Ciccone, Dom, Regional Chief, National Wildlife Refuge 
      System, Region 2, U.S. Fish and Wildlife Service, prepared 
      statement of...............................................    44
    Delgado, Joseph, assistant chief of police, Tohono O'Odham 
      Police Department, prepared statement of...................    19
    Hoover, Reverend Robin, president, Humane Borders, 
      Inconsistent, prepared statement of........................   124
    Manuel, Edward D., chairman, Tohono O'Odham Nation, prepared 
      statement of...............................................    13
    Salcido, Fern, Tohono O'Odham Nation legislative council 
      member, prepared statement of..............................    97
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Toro, Augustine, chairman, Chukut Kuk Boundary Committee, 
      Tohono O'Odham Nation, prepared statement of...............   101
    Wellman, William, park supervisor, Organ Pipe Cactus National 
      Monument, National Park Service, prepared statement of.....    53
    Winderweedle, Hugh, Port Director, Lukeville Port of Entry, 
      U.S. Customs Service, prepared statement of................    64
    Woolley, James, Assistant Special Agent in Charge, Tucson 
      Division Office, Drug Enforcement Agency, prepared 
      statement of...............................................    72

 
   THE IMPACT OF THE DRUG TRADE ON BORDER SECURITY AND NATIONAL PARKS

                              ----------                              


                         MONDAY, MARCH 10, 2003

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                         Sells, AZ.
    The subcommittee met, pursuant to notice, at 10:21 a.m., in 
the Council Chambers, Tohono O'odham Nation, Sells, AZ, Hon. 
Mark Souder (chairman of the subcommittee) presiding.
    Present: Representatives Souder and Shadegg.
    Staff present: Nicole Garrett, clerk; Christopher A. 
Donesa, staff director and chief counsel; and Nick Coleman, 
counsel.
    Mr. Souder. The Subcommittee will come to order. I am going 
to read an opening statement, then have a few comments and I 
need to clarify a little what we are doing here.
    Good morning, and thank you all for coming. Today our 
subcommittee returns to continue its exploration of the status 
of security and law enforcement along the southern Arizona 
border.
    Since the summer of 2001, this subcommittee has been making 
a comprehensive study of our Nation's borders, including a 
field hearing last February in Sierra Vista, AZ. The 
subcommittee has focused particular attention on the 
effectiveness of the Federal law enforcement agencies entrusted 
with protecting and administering our Nation's borders and 
ports of entry. Last summer the subcommittee released a 
comprehensive report on these issues, but our study continues. 
This is the report that was just released. It is a little over 
100 pages, it is the most comprehensive study in the history of 
the government on the border.
    Today's hearing is intended to focus on the problem of 
illegal drug smuggling across the southern border, and the 
related crime and damage caused by that smuggling. This hearing 
is not intended to focus on the related problem of illegal 
immigration, which is a much larger and even more contentious 
issue. We understand, of course, that the issue of illegal 
immigration is bound to come up today as it is so deeply 
intertwined with the problem of narcotics smuggling along the 
southern border.
    This subcommittee also has jurisdiction over INS and 
immigration questions, but that is not our primary focus. As 
you probably know, Congressman Shadegg and I both have recently 
been appointed to the Homeland Security Committee as well. So 
we have multiple jurisdictions, but when we look at border 
issues, we look at narcotics, but then we also look at trade 
questions, we wind up looking at immigration questions and the 
more comprehensive--but particularly what we are looking at is 
the vulnerability of the southern border. Our primary 
responsibility in this subcommittee is oversight of narcotics 
questions, as well as authorizing the drug czar office and 
those regulations which we are in the process of doing in the 
next 30 days.
    The southern border is still far more illegal--has far more 
illegal activity than the northern border, and it presents 
severe challenges for effective law enforcement. The southern 
border runs through deserts, mountains and rivers, through 
unpopulated areas as well as cities and suburbs, and through 
national parks, wildlife refuges, Native American reservations 
and even military bases. Questions of overlapping law 
enforcement agency jurisdiction can come into play, and we 
intend to address those issues today.
    The particular problem of illegal cross-border activity in 
parks, refuges and reservations is illustrated by several 
incidents over the past year. In August 2002, Ranger Kris Eggle 
was killed by drug smugglers in Organ Pipe Cactus National 
Monument. The murder occurred less than a year after the U.S. 
Department of Interior's Inspector General released a report 
which raised serious questions about how well equipped and 
prepared park rangers and other Interior Department law 
enforcement personnel were to deal with increasing drug 
smuggling and other crime taking place at national parks and 
wildlife refuges. In April 2002, marijuana smugglers attacked 
four U.S. Customs officers on the Tohono O'odham Nation 
Reservation, wounding one of them. The Tohono O'odham Nation 
has reported numerous other incidents of cross-border violence, 
and even incursions by Mexican military personnel in support of 
drug smugglers.
    Taken together, these incidents paint a stark picture of 
the challenges facing law enforcement and local citizens along 
the southern Arizona border. Drug smuggling and related crime 
have taken a toll on the environment and the quality of life 
for local residents, besides presenting a threat to the entire 
country. We are talking today about narcotics, but as we look 
at Homeland Security questions and the vulnerabilities you have 
when you do not control either of the borders, they are just 
incomprehensible. As I was out here yesterday trying to figure 
out how we would stop someone if they have a piece of a nuclear 
weapon and it becomes catastrophic. Short-term, that is not as 
an immediate threat on the south border as it is on the north 
border, but long-term, without control of your borders you 
cannot have a secure Nation.
    These issues are all very important and extremely urgent, 
and we look forward to hearing from our witnesses today about 
ways to address them.
    We want to first thank the Tohono O'odham Nation for 
agreeing to provide their facilities for this hearing. We 
greatly appreciate your courtesy in hosting this event and in 
providing four witnesses to testify: the Honorable Edward 
Manuel, chairman of the Nation, representing the sovereign 
government; Assistant Chief of Police Joseph Delgado, 
representing the Tohono O'odham law enforcement community; Ms. 
Fern Salcido and Mr. Augustine Toro, private citizens of the 
Nation who live in border districts. We look forward to 
learning more about the difficulties you face here in the 
Tohono O'odham Nation.
    We have also invited representatives of the agencies 
primarily responsible for dealing with drug smuggling in this 
region; namely, the U.S. Customs Service, the U.S. Border 
Patrol and the Drug Enforcement Administration. The 
subcommittee is vitally interested in ensuring the effective 
functioning of these agencies, and we will continue to work 
with them and their staff to ensure the continued security and 
effective administration of our Nation's borders and its 
protection from narcotics.
    We also welcome Mr. David Aguilar, Chief Patrol Agent for 
the U.S. Border Patrol's Tucson sector, who we have worked with 
in previous hearings. Mr. Hugh Winderweedle, Port Director of 
the U.S. Customs Service in Lukeville's Port of Entry and Mr. 
James Woolley, Assistant Special Agent in Charge of the Drug 
Enforcement Administration's Tucson Division Office.
    As this hearing is particularly focused on the problems 
faced at our Nation's parks and wildlife refuges, we are also 
pleased to be joined by Mr. Dom Ciccone, Regional Chief of the 
National Wildlife Refuge System, representing the U.S. Fish and 
Wildlife Service and Mr. William Wellman, Park Supervisor for 
the Organ Pipe Cactus National Monument, representing the 
National Park Service.
    I am also a member of the House Resources Committee on the 
National Parks and on the Fish and Wildlife subcommittees, so I 
have had many opportunities to visit our national parks and 
wildlife refuges and to meet with Interior Department personnel 
who manage them. We hope at this hearing to focus special 
attention on the law enforcement issues faced by your agencies, 
so we thank you again for your participation.
    When examining border policies, we must of course also seek 
the input of representatives of the local community whose lives 
are directly affected by the changes at the border. We 
therefore welcome, in addition to Ms. Salcido and Mr. Toro, Ms. 
Jennifer Allen of the Border Action Network; Colonel Ben 
Anderson, a retired U.S. Army officer and local resident and 
Reverend Robin Hoover, president of Humane Borders, Inc.
    We know that these issues can be very contentious, because 
they are a matter not simply of the quality of life for those 
who live here, but of life and death itself. We hope to have a 
courteous but frank discussion of these issues, and we thank 
everyone for taking the time this morning to join us for this 
important hearing.
    It is an honor today to be joined by my friend and constant 
advocate for Arizona, Congressman John Shadegg, a previous 
member of this committee. As I said, we will be working 
together on border issues on Homeland Security. It is great to 
be in Arizona.
    Mr. Shadegg.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.001
    
    [GRAPHIC] [TIFF OMITTED] T7703.002
    
    [GRAPHIC] [TIFF OMITTED] T7703.003
    
    Mr. Shadegg. Well thank you, Mr. Chairman and welcome to 
Arizona. We are thrilled to have you here. We know you spent 
the weekend here and we very much appreciate your coming here.
    I am Congressman John Shadegg and I represent the Third 
District of Arizona. I am not a member of the subcommittee any 
longer, though I once was, but I have worked on border issues 
quite extensively with Congressman Souder. I want to welcome 
you here, Mark, and your lovely wife. I want to tell you that 
we appreciate your spending time in Arizona and looking at our 
issues with regard to the border and all of our issues with 
regard to drug enforcement. Mark spent part of his time on 
Saturday looking at our HIDTA in Phoenix and it wound up 
costing he and his wife their day's plans. So he has spent an 
aggressive amount of time here in Arizona working and not doing 
any recreation, but I hope we at least provided you with good 
weather.
    I also want to thank the Tohono O'odham Nation and its 
chairman for hosting us here today. I want to explain that in 
part some of the groundwork for this hearing resulted from a 
visit I made to the border roughly 3 weeks ago, where we went 
to Organ Pipe Cactus National Monument and looked at the 
situation in that park. We looked at the location where Park 
Ranger Eggle was murdered, and began to take an accounting of 
the problems that we face along the border from Nogales west.
    I want to point out--and I note this, Congressman, with 
some degree of tongue in cheek--that you and I both, I think, 
visited Nogales in January and did an extensive border tour 
there, including at that time their new truck facility and a 
helicopter tour there. We visited Sierra Vista in February and 
spent some time there and night time down on the border, 
helicopter work and also some ground work, looking at the new 
elevated stations for observing border crossings, and we are 
here in March. I wonder if I detect a pattern there? I do not 
see August or July in those months. [Laughter.]
    Mr. Souder. What you neglect to mention is I have been here 
on other business with the parks in the hot season, so I 
decided not to repeat that. [Laughter.]
    Mr. Shadegg. Oh, I appreciate you inviting me only for your 
winter visits.
    These issues are in fact very, very important. I want to 
note for the record and just make a comment for my friends from 
Arizona. Fellow Arizonans, that Mark is singularly devoted to 
two issues that I think are very important to us here in 
Arizona. One is the border issue in general and the importance 
of our Nation's borders and the importance of the security and 
law enforcement along those borders; and second, the issue of 
illegal drugs. He has worked aggressively on this issue. He has 
been around the globe looking at the drug issue. He is very 
personally dedicated to and concerned about the devastation of 
our young people in this Nation by illegal drugs and the damage 
they do. He has looked at interdiction in source countries, he 
has looked at interdiction in the transit regions and looked at 
our borders and has looked at enforcement within the country. I 
think that commends him well and he works very hard. The report 
that he has produced is a tremendously valuable asset and it 
catalogs the successes and the failures and the needs of our 
law enforcement officials at our borders and at our ports of 
entry.
    I described to him my experience at Lukeville a couple of 
weeks ago and the condition of the fence at Lukeville and 
provided him with a book of pictures, trying to show to him 
some of the concerns. His only comment of note was that I seem 
to be in every picture. [Laughter.]
    I also explained to him some of the issues here with the 
Tohono O'odham, and the very impressive information that the 
Tohono O'odham Nation presented to me when we were in Lukeville 
and over at Organ Pipe Cactus National Monument a few weeks ago 
in terms of the trafficking across the reservation, the damage 
that is done by that trafficking, the recent upsurge in drug 
trafficking across the Nation and the lack of resources that 
the Nation has to deal with that problem. I also described to 
Mark the genuine concern of the Nation for the fact that we 
have now appropriated funds to build an automobile barrier 
along the southern boundary of Organ Pipe Cactus National 
Monument, but we have not done anything to deal with the border 
either east of that location--meaning here on Tohono O'odham--
or west of that location on the Cabeza Prieta National Wildlife 
Refuge. We have tried to give Mark some kind of an inkling of 
what he would find when he came here for this hearing.
    I want to thank all of our witnesses for being here. I 
believe that this is a tremendous step forward for us to be 
able to present this information in a formal congressional 
hearing where it will get on the record. I would note that in 
his work on border issues and particularly on drug issues, Mark 
is acting at the personal request of the Speaker of the U.S. 
House, who shares Mark's passion about drug issues and about 
border issues because of the issue of drugs. So when you 
recognize this hearing and have an opportunity to put this 
information in the record, the problems that we face all along 
America's southern border, the particular problems we face here 
along the Arizona section of our southern border and the unique 
problems today that we face here in the Tohono O'odham Nation, 
at Organ Pipe Cactus National Monument and also at Cabeza 
Prieta. That information is going into the official record of 
the U.S. Congress and is being brought forward in a sense by a 
chairman who is working at the request of the Speaker of the 
House himself, which means that we have a chance to use that to 
try to make our case for the resources we need to deal with 
these issues.
    With that, Mr. Chairman, I thank you for being here and for 
taking the time. I thank all of our witnesses and I yield back 
my time.
    Mr. Souder. Before proceeding, I would like to take care of 
a couple of procedural matters. First, I would ask unanimous 
consent that all Members have 5 legislative days to submit 
written statements and questions for the hearing record, and 
that any answers to written questions provided by the witnesses 
also be included in the record. Without objection, it is so 
ordered.
    Second, I would like to ask unanimous consent that all 
Members present be permitted to participate in the hearing.
    Let me make a couple of introductory comments as far as how 
a hearing functions. This is not a town meeting. Generally 
speaking, even in Washington, often our hearings will have 1 to 
2 Members present and maybe 5 to 10 people in the audience. It 
is not a participation meeting where people can ask questions, 
where they can make comments. There are designated witnesses, 
time periods of 5 minutes for a witness, which we try to stay 
as tight to that as possible and draw it out in the questions. 
Full statements are submitted for the record and additional 
material is submitted for the record, because it is a 
proceeding where we are building an official record as we work 
through different border issues.
    Because there are not a lot of field hearings in hard-to-
get-to locations, often people do not understand the difference 
between that and a town meeting, and I wanted to outline that a 
little bit before we got started with the hearing.
    If you have comments that you would like to submit, you can 
submit them to the committee. We will work through, as best we 
can, to insert them into the record. That is not a uniform 
commitment that we will do so, but we will certainly consider 
that, and we consider the request, particularly if they go 
through the Congressman who represents you, who then can submit 
it to the members of the committee and go through--there is a 
legal process we have to work through for testimony as well, 
because one of the things we do in this committee is swear in 
every witness, and with handwritten statements you are not 
sworn in the same under oath, so we have to be careful. The 
reason this committee does that is we are an oversight 
committee. It is the only committee, I believe, in Congress--
the Intelligence Committee may as well--that swears in 
witnesses. This committee is the one that does investigations 
such as on China and on Waco and the whole range of things like 
that, and we have had multiple perjury cases come out of this 
committee. So that is why submitted statements and random 
questions do not work in our field hearings because the people 
have to prepare that and have it cleared, and they should be 
prepared to be prosecuted if they give us false statements in a 
hearing. I am not threatening anybody, I am just saying as a 
factual matter that has happened in the committee. Our job is 
to figure out when the government is being effective in 
implementing the laws that Congress passed.
    In recognition of the courtesy of Tohono O'odham sovereign 
Nation in hosting this hearing, we would like to first hear 
from their official representative. So would the first two 
witnesses, Chairman Manuel and Assistant Chief of Police 
Delgado, please come forward and remain standing because we'll 
need to administer the oath.
    If you will raise your right hands. It is our standard 
practice, as I said, to have everybody testify under oath.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that both witnesses have 
responded in the affirmative.
    I also want to make sure that I put in the record that we 
have talked to a number of Congressmen to alert them of this. I 
talked to Congressman Grijalva approximately a month ago that 
we were coming. I believe he has representatives here today, 
but he was not able to be here. We always make sure that 
whatever district we are in, we approach that Congressman as 
soon as we have a confirmed date and let them know we are 
coming in, even if they are not a member of the committee.
    With that, let me again say it is a great pleasure to be 
here. I drove through yesterday as we were heading to the park 
and back this morning from Ajo. It is absolutely beautiful 
country with the flowers and the cactus. It is not green 
soybeans like Indiana. It is not nice and flat where you can 
see the next two States like we can in Indiana, but what 
beautiful country. It is really a great honor to be here among 
you, and I look forward to hearing your testimony.

   STATEMENTS OF EDWARD D. MANUEL, CHAIRMAN, TOHONO O'ODHAM 
 NATION; AND JOSEPH DELGADO, ASSISTANT CHIEF OF POLICE, TOHONO 
                   O'ODHAM POLICE DEPARTMENT

    Chairman Manuel. Good morning, Congressman Souder, good 
morning Congressman Shadegg and staff persons. Welcome to the 
Tohono O'odham Nation. Also, I would like to welcome the public 
that are here this morning.
    I am honored to appear before the subcommittee today to 
share my thoughts on the impact that the drug trade is having 
on Tohono O'odham Nation. We have many problems along the 
international boundary, such as homeland security, 
environmental and illegal immigrants. Today, I will confine my 
testimony only to the drug trade due to time limitations.
    Let me share some background information on the Tohono 
O'odham Nation. The Tohono O'odham Nation is comprised of 2.8 
million acres of land, an area the size of Connecticut. O'odham 
lands are contiguous to 75 miles of the international boundary 
and our Nation has approximately 28,500 members.
    Cross-border drug smuggling is one of the most serious 
problems facing our community today.
    It is important that you understand how the present crisis 
was created so that steps can be taken now to address the 
situation. We must avoid making these same mistakes in the 
future. In the past, the United States initiated several border 
programs such as Operation Gatekeeper and Hold the Line aimed 
at specific border areas. These initiatives were successful 
around the ports of entry, but had the unfortunate effect of 
forcing illegal activities away from the ports and 
unfortunately onto the land of the Tohono O'odham Nation. A 
shifting of resources is costly, time consuming and 
ineffective. Our land and our people have suffered 
tremendously. They have suffered collateral damages as a direct 
result of these policies and practices. We were never 
consulted.
    Let me share with you some of the impact the drug smuggling 
is having on the Nation. In 2001, one of our Tohono O'odham 
policewomen, working alone, seized 450 pounds of cocaine with a 
street value of $4 million and arrested the two smugglers who 
had recently brought their load across the border. Last year, 
our police department seized in excess of 75 tons of narcotics. 
This level of drug smuggling has seriously strained our law 
enforcement resources and put our officers at great risk. Drug 
smuggling is big business. The Tohono O'odham Nation Police 
Department's drug seizures have resulted in significant 
financial losses to those businesses that engage in the 
importation of narcotics. We know that it is just a matter of 
time before the smugglers start to retaliate. Smugglers are 
armed with automatic assault type weapons, have armor-piercing 
bullets and have sophisticated communication equipment to 
detect our law enforcement presence. Our resources are diverted 
away from our community, our community-based policemen.
    The people involved in the smuggling business on our lands 
come from all over the United States. They are not American 
Indians and we do not have legal authority to prosecute them in 
our courts. They recruit our children to transport the drugs, 
they lure our teenagers to experiment with drugs such as 
cocaine, heroin and crystal meth--drugs that never before were 
found in our communities. When our kids become addicted, we 
have no services to treat them, no residential care, and no 
detox beds. All too often, they end up in the intensive care 
units of Tucson hospitals.
    These are just some of the tragic effects of cross-border 
drug smuggling--the question is what can we do? You and I both 
know that until demand in the United States for narcotic 
products is effectively dealt with, those of us who live and 
work along the border will have to deal with the effects of 
drug smuggling.
    We are told that plans are in the works to build a vehicle 
barrier fence along the Organ Pipe Cactus National Monument, 
along its border. As a stand-alone project, this will simply 
divert more smuggling traffic into the lands of the Tohono 
O'odham Nation. The Tohono O'odham Nation stands ready to work 
in partnership with our neighbors, but it is not right to 
implement a project in one area, which only have the effect of 
making life worse for our communities and our people.
    Protection of America's borders is clearly a Federal 
obligation. We hear a lot about homeland security and yet how 
secure is our homeland when tons and tons of narcotics cross 
our border every day?
    I propose that the United States construct and maintain a 
road immediately adjacent to the international boundary from 
the west end to the east end of the Tohono O'odham Nation, the 
entire 75 mile length. Further, I propose that the U.S. law 
enforcement resources be stationed directly on the border and 
removed from our communities.
    I know that these proposals are costly, but we simply must 
stop the massive importation of narcotics across the lands of 
the Tohono O'odham Nation. We can do this in one of two ways--
either the United States can provide direct and adequate 
funding to the Tohono O'odham Nation and we will build and 
maintain the road and put our law enforcement personnel on the 
border, or the United States can build and maintain the road 
and station Federal law enforcement agents on the border. We 
must act now--regardless of which option we pursue. We must act 
in collaboration with the United States and our neighbors along 
the border. Not only does drug smuggling have major negative 
effects on the Tohono O'odham Nation, drugs go beyond the 
boundaries of the Nation into the Arizona communities and the 
United States. The grave danger faced by our law enforcement 
and the health and safety of our people in our communities 
require that we all work together to effectively address the 
issue of border crossing importation of drugs.
    Again, thank you. I am pleased to answer any questions you 
may have.
    Mr. Souder. Thank you, Mr. Chairman.
    We would now like to hear from Assistant Chief Delgado.
    [The prepared statement of Chairman Manuel follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.004
    
    [GRAPHIC] [TIFF OMITTED] T7703.005
    
    [GRAPHIC] [TIFF OMITTED] T7703.006
    
    [GRAPHIC] [TIFF OMITTED] T7703.007
    
    Mr. Delgado. Good morning, Members of Congress, welcome to 
the Tohono O'odham Nation.
    The Tohono O'odham Nation has experienced a dramatic 
increase in the amount of smuggled narcotics across our lands 
from Mexico into other parts of the United States. The increase 
is simply beyond the Nation's control and due largely to the 
demand for narcotics. Nevertheless, the impact of this illegal 
traffic presents a huge cost for the Nations Tohono O'odham 
Police Department and prevents the police department from 
completing its mission to provide community policing for the 
Tohono O'odham communities.
    TOPD estimates that it spends in excess of $3.7 million on 
interdiction of illegal traffic across the international 
border. In other words, fully 60 percent of the TOPD's budget 
is devoted to fighting the international drug problem.
    During fiscal year 2001, the TOPD seized 45,000 pounds of 
illegal drugs. At the end of fiscal year 2002, the TOPD seized 
a total of 65,000 pounds. In April 2002 alone, the TOPD seized 
a record 15,960 pounds or one-third the total seized in 2001. A 
recent analysis by TOPD demonstrates that in 2002, we spent 
$642,880 in direct costs associated with international drug 
smuggling cases alone. That cost represents only the personnel 
time involved in such investigations; it does not include 
vehicle and/or other non-administrative costs.
    Protecting the border and deterring international traffic 
in narcotics is the responsibility of Federal law enforcement 
agencies. The scale of the problem indicates a sizable hole in 
the border sufficient to threaten homeland security. TOPD 
attempts to plug the hole with limited resources, while we 
receive no Federal funding support for our efforts. Clearly, 
without Federal funding support, the TOPD will remain 
overwhelmed by the international border problem, much to the 
detriment of the Tohono O'odham members and our communities.
    The $3.7 million cost of interdicting narcotics amounts to 
60 percent of the TOPD's budget, and an effort which provides 
significant assistance to Federal law enforcement agencies. 
Other local law enforcement receive some Federal funds for 
similar efforts. TOPD should be accorded the same level of 
funding and resource allocation, if not more, considering the 
size of the international problem occurring on our land of the 
Tohono O'odham Nation. Federal funding support would reimburse 
both direct and opportunity costs of TOPD's forced involvement 
in border-related law enforcement and public safety challenges, 
which are a Federal responsibility. Few local law enforcement 
agencies face the scale of challenges before the TOPD. Local, 
community public safety needs of Tohono O'odham often are put 
at risk, if not compromised.
    To better address the local need for TOPD's law enforcement 
services, while balancing the TOPD's assistance in illegal 
trafficking, TOPD requests $3,707,000 in Federal funds. 
Currently, operational costs for our efforts amount to $1.8 
million, while personnel costs amount to $1.6 million and 
indirect costs at $326,790. Federal funding in this amount 
would cover personnel, vehicles, support equipment and 
operational expenses. Only through Federal funding support can 
TOPD continue to meet border-related challenges and protect the 
homeland security of the United States. Most important, these 
funds will allow TOPD to address the need for community-based 
police services.
    Thank you. I am pleased to answer any questions you might 
have.
    [The prepared statement of Mr. Delgado follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.008
    
    [GRAPHIC] [TIFF OMITTED] T7703.009
    
    Mr. Souder. Thank you both for your testimony.
    Chief Delgado, is your department eligible for equipment 
under the drug czar's office--do you know or are you familiar 
with that program?
    Mr. Delgado. Yes, we are.
    Mr. Souder. So you have been able to get Federal equipment 
through that?
    Mr. Delgado. We get very limited and very little equipment 
through them. I believe we got some night vision equipment 
once.
    Mr. Souder. Have you applied on a regular basis?
    Mr. Delgado. We do talk to them.
    Mr. Souder. Because that is the primary way we transfer 
technology to police departments around the country and we want 
to make sure in the legislation that we are doing that you are 
eligible. So you are eligible for that, which is the same as 
other departments. Are there particular programs where you 
think that other--it would be helpful if you could give us 
where you believe State and local police departments are able 
to apply for Federal funds in drug enforcement that you are 
not.
    Mr. Delgado. OK.
    Mr. Souder. If you can talk to some individuals and maybe 
followup with the Tucson Police Department, the Arizona 
Governor's Office, could rather than actually complaining, 
actually give--I do not mean you, but the Governor's Office, 
rather than just complaining, give some specifics of how to 
help along the border. We certainly realize that you have one 
of the biggest segments of the border and that you ought, at 
the very least, have the same ability as everybody else to 
apply. It does not even make sense not to have that happen, and 
there probably needs to be additional efforts too. And I think 
your statement is helpful on that.
    Can I ask you another question, on the amount of narcotics 
that you have seized, is most of that marijuana?
    Mr. Delgado. Yes.
    Mr. Souder. Fifty percent?
    Mr. Delgado. Probably a little higher than that.
    Mr. Souder. And then what is--by higher, two-thirds?
    Mr. Delgado. Probably about two-thirds.
    Mr. Souder. And then cocaine, the next amount?
    Mr. Delgado. Yes and meth after that.
    Mr. Souder. Is most of this coming in small back packs or 
are you occasionally intercepting groups, have you seen any of 
the mule trains that they have seen in other places?
    Mr. Delgado. All different things, we have seen mule trains 
in conjunction with like 8,000 pounds all the way to maybe 10 
pounds, it comes in all ways, horseback. We have gotten reports 
of dropping it by airplane in different areas of the 
reservation, the airplanes come by and drop it. We got a report 
last week. So there are all different ways of bringing it 
across.
    Mr. Souder. Chairman Manuel, you mentioned about a road. 
Would you support a continuation of the fence like is going 
through the park?
    Chairman Manuel. We looked at the one that they are 
proposing in Organ Pipe and believe the two districts that are 
adjacent to the international boundary are in discussion now 
and if they agree, we will support it.
    Mr. Souder. One of the things where we have had some 
disagreement over in the Sierra Vista/Douglas zone, as well as 
on the north border, is I believe we need to be more aggressive 
at the border and as we gradually put the pressure at the 
border. But we are also going to need check stations beyond the 
border, merely because no matter what we do, people are going 
to come through and move toward the major highway areas. And I 
know that is controversial in those States, but there just is 
not any other way to do it because they will rendezvous. But 
the more we can catch at the border, the more difficult we make 
it, the better.
    Now I am not an expert on this and I know it is an issue 
that we are going to talk about later today, but how would you 
see addressing a fence in the border regarding, I understand 
your Nation is also spread across the international boundary? 
Are there ways to track tribal members so that we would know 
who--so we would not have a formal border crossing there, but 
there would be a way to allow the flexibility within the tribe 
so we would still be able to protect American citizens? We have 
a similar case up in upstate New York.
    Chairman Manuel. We have three entries into the Nation from 
the international boundary that our members know about and they 
utilize it all the time for transportation for health purposes. 
So we are proposing that three remain open.
    Mr. Souder. We have had a lot of discussion, less in the 
last year but certainly there are going to be discussions about 
what we need to do regarding immigration policies and guest 
worker policies and I know that you have proposals about 
citizenship questions, but at the very least, it would seem 
like this would be a way to do a pilot, if not citizenship, 
guest passes or maneuverability. Would you be able to identify 
who the actual members are on the Mexican side, so that they 
could be double-checked if they were, you know, picked up in a 
random mix or something, that we would know whether they are 
clearly a member of the Nation?
    Chairman Manuel. Yes, we have enrollment cards that our 
members carry and they cannot be duplicated. So that's how we 
know.
    Mr. Souder. And they could be matched by name?
    Chairman Manuel. Right.
    Mr. Souder. Because in my home State where the narcotics 
and illegal immigration, whether it comes through here or 
through Texas, back in Indiana, as we all know there are tons 
of places that make Social Security cards and green cards and 
all that kind of stuff and you cannot ask questions. So there 
would have to be some kind of a check thing. On the other hand, 
if we put a fence up, it divides a Nation, perhaps there could 
be flexibility on how to address that, and it would seem to me, 
just looking at it on the surface, that this might be a way to 
look at the full program to see whether in fact we can monitor 
proposals like guest workers and different immigration 
strategies that we are looking at at the Federal level.
    I will yield to Mr. Shadegg for some questions.
    Mr. Shadegg. Thank you, Mr. Chairman. I want to thank both 
of you for excellent testimony, I appreciate it very much, I 
think it is very helpful.
    Chairman Manuel, I want to begin by asking you about the 
drug issue and particularly about the impact of the drug issue 
on the Nation itself.
    When we met over at Organ Pipe, information was provided to 
me about a concern of the Nation that its youth were being 
recruited by drug smugglers to take a part in the drug 
smuggling activity and being offered presumably large sums of 
money to do that. Is that in fact occurring and are you aware 
that it is a concern of the Nation?
    Chairman Manuel. Yes, it is happening. I believe the 
individual that was at the Organ Pipe meeting was one of the 
District Chairs and one of the comments that she made was that 
she had a daughter who has a friend and this friend had a new 
vehicle with sophisticated scanning and communication equipment 
in the vehicle and so she told her daughter not to associate 
because she does not have a job and to have that kind of 
gadgets in her vehicle. It is happening to members of the 
Nation, especially our young people because of the unemployment 
that is very high here on the Tohono O'odham Nation. So it is 
very lucrative when they get the money that they can get by 
doing that, but not realizing the consequences that they can 
get into when they are caught. So that is a problem.
    And the person is here today if anybody wants to ask her 
any questions about that. We also know that there are other 
people that are involved.
    Mr. Shadegg. Assistant Chief Delgado, I noticed that in 
your prepared testimony, you mentioned that this diversion of 
so much of your financial resources to patrolling the border, 
dealing with illegal crossings, dealing with drug smuggling, 
dealing with other crossings that are illegal, diverts you from 
community policing. Are you also aware of an increasing 
tendency of your young people to be recruited or other damage 
being done here to the Nation itself and to the people of the 
Nation?
    Mr. Delgado. Yes. Predominantly out west, in the western 
part of the Nation, we have seen an increase in younger 
juvenile, even ages 12 and up, 14, 15, they are being recruited 
to be lookouts, watchouts, to watch for us, Police and Customs 
and other departments that are coming. We are also seeing 
younger drivers. There was a report that there was a kid as 
young as 13 years old that started running drugs at the age of 
13--we have seen that.
    Mr. Shadegg. Speaking of drug runners, I presume that while 
some drug smuggling can occur in a backpack fashion, other 
smuggling occurs by vehicle crossing. Is it a concern to the 
Nation, and have you begun to look at how serious it would be 
if a vehicle barrier were built along the southern boundary of 
Organ Pipe, that that would drive vehicles bringing drugs 
across over here on the Nation?
    Mr. Delgado. Yes, it would be a great impact, just like 
that operation when they close down the borders in Nogales and 
other places creates a funnel to our Nation.
    Mr. Shadegg. Mr. Chairman, you mentioned that you have 
three crossings that members of the Nation use to go back and 
forth. I believe that when I was in Organ Pipe or Lukeville 
with you, there was some concern expressed that perhaps the 
Nation wanted to close, I do not know if it is one of those 
three or one of the more informal crossings, because of concern 
about trafficking across the border of either drugs or 
illegals. Is that in fact--is one of the Districts concerned 
about that issue?
    Chairman Manuel. The community that is I think about a mile 
from the border, the members were at the meeting at that time 
and they did propose that they close that gate, but I told them 
that it is really up to the District and they have to work with 
the District if they want to close that, because there are 
members that come back and forth for health purposes.
    Mr. Shadegg. Just one more question on the drug issue and 
then I want to move a little bit to homeland security for a 
moment. In terms of quantities of drugs, the statistics you 
have given us show a rather dramatic increase. Do you have 
reason to believe that increase is going to continue, and in 
stopping or interdicting any of the drugs, do you sometimes 
find drug drop points here on the Nation where drugs are 
brought in and then dropped and left and they could be found by 
members of the Nation or by youth of the Nation? Is that a 
concern?
    Mr. Delgado. Yes, it is. There are different ways they 
bring the drugs up. A lot of times, they store them at the 
locations and washes, in and around communities, around the 
houses and different areas. So we have had reports that people 
have found drugs and even some young people have found drugs 
and will call us and we will go out and pick them up. So it is 
a great concern.
    Mr. Shadegg. Do you get cooperation on those issues from 
DEA or Border Patrol or other Federal agencies?
    Mr. Delgado. Yes, we do, we work real well with Border 
Patrol and U.S. Customs, we all work together.
    Mr. Shadegg. In the materials that I was provided over at 
Organ Pipe, there was information about the issue of crossings 
not just by Mexican nationals, and there was this ticket that 
was explained. Since in part our focus here is homeland 
security, could one of you explain--I believe this is a ticket 
that showed a crossing not by a Mexican national, but rather by 
a individual with a Middle Eastern name. Are you seeing 
increase in crossing by non-Mexican nationals and can you 
explain to us exactly what that ticket was about and your 
concern on that particular issue?
    Mr. Delgado. That was an airline ticket, I believe?
    Mr. Shadegg. Yes, an airline ticket.
    Mr. Delgado. I believe it was an airline ticket that was 
found.
    Mr. Shadegg. I should have said this in the question--an 
airline ticket found last August for an individual by the name 
of Youssef Abdul Covare, that I believe you found just 
abandoned here on the reservation.
    Mr. Delgado. Yes, it was southwest of here along some of 
the trails where people with drugs and also illegal aliens come 
across. We turned it over to the FBI.
    Mr. Shadegg. And you have evidence--this is my last 
question and I will yield back to the chairman--you have 
evidence of increasing crossings by non-Mexican nationals in 
this area?
    Mr. Delgado. I am not sure, you may have to talk to Border 
Patrol.
    Mr. Shadegg. Mr. Chairman.
    Chairman Manuel. I am not aware of it, but it is a concern 
for homeland security purposes.
    Mr. Shadegg. Thank you. I yield back my time.
    Mr. Souder. I wanted to followup with the chairman's 
testimony. You said that ``The people involved in the smuggling 
business on our lands come from all over the United States. 
They are not American Indians, so we do not have legal 
authority to prosecute them in our courts.'' What happens if 
you apprehend someone?
    Chairman Manuel. If they are not Indians, they are turned 
over to Customs or the FBI.
    Mr. Souder. And do you have--and I know we will get into 
this on the second panel that is going to be focused on the 
entire border, but this will be an opportunity to focus on the 
Nation in particular. Do you have agents that are close by or 
do they have to come from Tucson or where do they come from? If 
you apprehended somebody and you cannot prosecute them in your 
courts and you need to turn them over, what, in a practical 
way, happens here?
    Mr. Delgado. It just depends, because they are also 
overwhelmed with these same issues we are overwhelmed with on 
this border. So sometimes if they are close by, we have a 10 
minute ETA. The other night we had something like 75 we had to 
house in our department and it took them approximately an hour 
to get here. Sometimes there's extended ETAs because like I 
said, they are overwhelmed. So it could be anywhere from a 5-
minute to a couple hour timeframe to come and respond.
    Mr. Souder. And it is the Border Patrol that always 
responds?
    Mr. Delgado. On illegal immigrants. On drugs, we work with 
Customs, U.S. Customs Service.
    Mr. Souder. Does that vary whether they just come across 
the border or they are further in, or is it just assumed that 
they have come across rather recently, if they are in your 
Nation?
    Mr. Delgado. It is assumed they have come across very 
recently, depending on where we get them at. We have got them 
all the way as far as 40 miles up from the border, all the way 
up to Casa Grande area, all the way up by Silver Barrel Mine, 
and that could take a couple of days to get there.
    Mr. Souder. On the south border--and pardon my ignorance on 
this--are there any other sovereign Indian nations along the 
border that have a similar problem, that you have talked with?
    Chairman Manuel. Not that we are aware of, I think we are 
the only one. There is only one other tribe in California that 
has land similar to the Nation, but I am not aware whether they 
face similar problems. But we do have Customs at the substation 
here on the Nation's land, so they are here 24 hours a day.
    Mr. Souder. I guess we definitely need to look at even in 
housing, make sure there is--often in the law, we have to 
specify Indian Nation separate on these different things for 
law enforcement questions, for when we have people overnight, 
not to say that there is a lot of money, every single 
jurisdiction along every border crossing says they do not have 
enough to cover, but there needs to be some kind of focus.
    Do you find that--you said you had 75 one night in your 
prison?
    Mr. Delgado. Yes.
    Mr. Souder. Did they take them somewhere then or----
    Mr. Delgado. We housed them in our police station.
    Mr. Souder. I mean after Border Patrol arrived, what 
happens?
    Mr. Delgado. They take control. I believe they brought a 
bus up and picked them and took them for deportation.
    Mr. Souder. If you find narcotics and they are not part of 
your Nation, what jurisdiction do you have to seize narcotics?
    Mr. Delgado. Ourself and Customs works together and whether 
they are tribal or non-tribal members, we will seize them, we 
will also arrest them and present the case to the U.S. 
Attorney's Office for prosecution.
    Mr. Souder. And if they are non-tribal members, do you have 
to wait until a Customs person arrives?
    Mr. Delgado. Yes and no. We do work with them, usually we 
are working hand-in-hand, so it is not a long wait for them, or 
we can start the case ourselves, we have our own narcotics 
team, and it is a two-man team that works with Customs. They 
have radios with Customs and I believe they are cross 
certified.
    Mr. Souder. In the testimony, and we have also heard 
informally, about concerns that Mexican law enforcement or 
military have come across the border actually aiding the 
narcotics smugglers. Does this happen very often, is this 
confirmed or just the type of thing people are saying? What 
specificity do you have?
    Mr. Delgado. I believe it is confirmed. They show up with 
Mexican military or Mexican, whatever they are, but they are 
dressed in uniforms. We have had numerous incidences with them 
along the border. One of our rangers, they came up to him on 
our side, we just had a case about a month ago I believe it 
was, where we had a stolen vehicle and it went across the 
border. The Mexicans came across and were seen loading the dope 
from one side to the other side. So it does happen.
    Mr. Souder. Pardon again my ignorance, on the Mexican side 
of the border, is there an organized Indian Nation and do they 
have lands or is it not set up exactly the same way? I am sure 
it is not exactly the same way, but how much of your parallel 
would there be and how many people are there and how 
intermingled?
    Chairman Manuel. We have about 90 members on the other side 
in Mexico, they are recognized as Mexican citizens.
    Mr. Shadegg. Mr. Chairman, I have a few followup questions. 
First of all, to your question about the Mexican military 
incursions, Chief Delgado, Chairman Manuel, when I was in Organ 
Pipe, we were presented this list of I believe five different 
incidents of Mexican military incursions that are recited by 
the tribe of incidents that were documented where Mexican 
military personnel came across. Is that an accurate list of at 
least some of those incidents?
    Mr. Delgado. Yes, it is.
    Mr. Shadegg. Mr. Chairman, perhaps we should put that in 
the record. It lists the date and the particularities 
surrounding the particular incursion.
    I have just one other question, and Chief Delgado, you may 
be able to answer it. In the Arizona press, particularly in 
Phoenix, there has recently been very high profile coverage of 
incidents where INS was not able to respond or Border Patrol 
was not able to respond, following an apprehension; that is, a 
couple of incidents where EPS had apprehended large numbers of 
individuals, they had good evidence that they had crossed 
illegally. I do not believe either of the incidents involved 
drugs, but they were high profile incidents where INS was 
called and maybe Border Patrol was called, I am not sure, 
perhaps even some other Federal agencies were called, and in 
those instances the Federal agencies simply said we are too 
busy, we cannot respond, and the individuals were let go.
    Have you had here on the Nation any incidents where you 
have called for Federal assistance but the Federal authorities, 
due to workload and other obligations elsewhere along the 
border have simply been unable to respond to your request for 
help?
    Mr. Delgado. Yes, it has happened in the past.
    Mr. Shadegg. Is that a frequent and ongoing problem? And 
Mr. Chairman, I know you seemed to want to respond to that as 
well, I will be happy to afford both of you an opportunity to 
respond.
    Chairman Manuel. Usually what their policy is, if it is a 
small amount of narcotics, they do not want to wait their time 
on it.
    Mr. Shadegg. I thank you very much for your testimony.
    Mr. Souder. Let me make sure I get a couple of other 
questions in the record. Is the Nation participating in the 
High Intensity Drug Trafficking Area as part of the border 
HIDTA?
    Mr. Delgado. Yes.
    Mr. Souder. You are. It is our understanding that stringent 
environmental regulations have hampered your ability to patrol 
certain areas along the border. Is that true, and do you think 
those questions could be resolved if we had a certain zone of 
possibly 2 miles in from the border that was a zone for 
security purposes?
    Chairman Manuel. I guess one of the reasons why we wanted 
the Border Patrol and Customs presence along the international 
boundary is because right now there is no presence because 
there is no road to travel back and forth along the 
international. Presently a lot of immigrants will come in 
through when a lot of the trust members are coming through, but 
we are also aware that some of them may still get through and 
we are aware that there will probably still be a need for 
Border Patrol in different areas of the Nation's land and I 
think that can be accommodated, it is not a problem. The 
problem right now is no protection of the international 
boundary.
    Mr. Souder. On the question of environmental regulations, 
is part of the problem along the border, environmental 
regulations?
    Chairman Manuel. It is a problem because there is a concern 
on the environmental part because the people that come through, 
we do not know what they carry in backpacks or on their shoes 
and that is a major concern because of the damage that can 
create on our wildlife, on our plants, on the animals, 
domesticated animals, especially our cattle. And that is a 
major concern for our ranchers.
    Mr. Souder. Let me pursue one other question, and I know 
this is a controversial question and we are going to hear from 
the third panel as well. One of the problems--and this is the 
huge dilemma because when illegal immigrants come through, it 
is partly because there is employment all over the United 
States that pays so much better, including in my home State, 
and we have to address the immigration question. Another is the 
narcotics that come through with a certain percentage of those 
illegal immigrants, who my guess is that in the last 2 weeks, 
we have had more people killed in Fort Wayne, IN with illegal 
narcotics that have come through the Arizona border than you 
have had people killed on the border. In other words, it is not 
a harmless matter that we have 30,000 deaths in the United 
States because of narcotics, 67 percent of which is coming 
across the U.S. and Mexican border. So it is a murder rate, 
related to murder rates all over the United States. We clearly 
have a compelling reason. We also have a huge problem with the 
people who themselves are often being victimized. They either 
are becoming dehydrated and dying or they are mugged along the 
borders or there is a safety question there. We have heard 
stories there about how Phoenix is just over the mountain, all 
sorts of things.
    Two part question. One is some of the rescue groups have 
put water in to try to solve the third part of the problem, but 
the question is does that aggravate the problem, the second 
part of the problem, which is more illegals come in, more 
narcotics come in and therefore more people die. What is your 
opinion on that, particularly if it does not go through your 
Nation as a process. And second, are you doing or has the U.S. 
Government done anything in your area like is starting to be 
done in the park area that gives you explicit warnings--no 
water, rattlesnakes, you know, you are not close to Phoenix?
    Chairman Manuel. Again, we believe the solution is to 
intensify the surveillance along the border, that would 
decrease a lot of these people coming through and getting in 
the desert. So if we can get a lot more people along the 
international boundary, or some people at least along the 
international boundary, that would decrease a lot of the 
activity on the mainland of the Nation. But I think the overall 
issue is the border policy, that needs to be changed, because 
you are going to have these problems all over unless the policy 
is changed in some way to address this problem.
    Mr. Souder. Is there a formal way people can come if they 
want to try to help address it through the Nation, to talk to 
you directly rather than coming and doing it independently?
    Chairman Manuel. I guess one of the problems that we are 
experiencing is the amount of activity that is created within 
ranches and if the people are not home, the people that come 
through help themselves to the food, even to the telephone. It 
is my understanding that one individual had a phone bill that 
came in for $500 for calls that were made to other parts of the 
country. That means these people came into their house at that 
particular time and made phone calls throughout the country.
    So these are some of the things that we are hearing on a 
daily basis. And that is one of the reasons why our members do 
not agree as far as enticing, in some way enticing people to 
come this way because we will help them. Our members always 
help people who are in distress and they care for people. If 
they need help, they will help them, but the problem is when 
you have so many people coming through and some people are not 
home and they help themselves to whatever they need and that is 
a major problem.
    So those are some of the concerns that they raise to me. 
Not only that, but also the drug problem that our kids are 
experiencing in the community because of drugs being available. 
So those are some of the concerns that we have.
    Mr. Shadegg. Mr. Chairman, I have a brief followup on that 
last question. We are going to get good testimony on the third 
panel, but Mr. Chairman, when I was at Organ Pipe with you, you 
explained to me much of what you said today; that is, that from 
a humane standpoint if you become aware of people crossing, you 
want to assist them, you do not want people dying on the 
reservation, dying of thirst or dying for lack of resources. At 
the same time, I was told by you and by officials of the Tribal 
Police Department that inducing people to cross the reservation 
and encouraging them to do that does not--is not consistent 
with tribal policies, that in fact the more people who cross, 
the more environmental damage there is, the more property crime 
there is and therefore the tribe has actively sought to work 
with groups who are concerned on the humanitarian side, not to 
encourage crossing of the reservation lands for those reasons; 
is that correct?
    Chairman Manuel. That is correct.
    Mr. Shadegg. And that is because you have seen property 
crime, drug issues and other environmental damage as a result 
of the volume of people who are induced to cross the border.
    Chairman Manuel. Yes.
    Mr. Shadegg. I thank you, Mr. Chairman.
    Mr. Souder. Thank you very much for your testimony, this 
helps bring attention that when we address and respond to an 
urgent problem that is created at Organ Pipe, we have to make 
sure that we do not complicate your life and that the U.S. 
Government and people have a long time of being less than 
conscientious in respecting the rights of Indian people and 
Native American people and in this case, we have an obligation 
to do so and we will do what we can to help. Everybody wants 
more money than they get, but we will certainly do what we can. 
If we can target in some of the equipment programs, high 
intensity areas that are under particular stress, we will do so 
and we appreciate your willingness to sacrifice and help 
protect the rest of America with your tribal funds. I thank you 
on behalf of the people of Indiana for doing what you do.
    With that, we will move to the second panel, thank you very 
much.
    Chairman Manuel. Thank you, Congressman.
    Mr. Souder. If the second panel could come forward, Mr. 
David Aguilar, Mr. Dom Ciccone, Mr. William Wellman, Mr. Hugh 
Winderweedle, Mr. James Woolley. And if the Chief of Aviation 
Operations for Customs, Mr. Dennis Lindsay, could come up as 
well, I need to swear you in at the same time because I am 
going to have some questions although you do not have 
testimony.
    If you will remain standing, if you could each raise your 
right hand.
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
have answered in the affirmative.
    OK, Mr. Aguilar, good to see you again. Go forward with 
your testimony.

STATEMENTS OF DAVID AGUILAR, CHIEF PATROL AGENT, TUCSON SECTOR, 
   U.S. BORDER PATROL; DOM CICCONE, REGIONAL CHIEF, NATIONAL 
   WILDLIFE REFUGE SYSTEM, REGION 2, U.S. FISH AND WILDLIFE 
 SERVICE; WILLIAM WELLMAN, PARK SUPERVISOR, ORGAN PIPE CACTUS 
 NATIONAL MONUMENT, NATIONAL PARK SERVICE; HUGH WINDERWEEDLE, 
 PORT DIRECTOR, LUKEVILLE PORT OF ENTRY, U.S. CUSTOMS SERVICE; 
 AND JAMES WOOLLEY, ASSISTANT SPECIAL AGENT IN CHARGE, TUCSON 
            DIVISION OFFICE, DRUG ENFORCEMENT AGENCY

    Mr. Aguilar. Thank you and good morning, Mr. Chairman, 
committee members, welcome back to Arizona.
    Mr. Chairman, and distinguished committee members, I am 
pleased to appear before you today to talk about the Tucson 
Border Patrol sector's initiatives to secure the border here in 
Arizona. My name again is David Aguilar and I am the Chief 
Patrol Agent for the Tucson sector of the recently established 
Bureau of Customs and Border Protection [BCBP], at the 
Department of Homeland Security.
    First I would like to thank you and your colleagues for 
providing BCBP and the Border Patrol with the support, funding 
and resources required to bring better control and increased 
security to our Nation's borders. The challenges we face are 
significant, but we are confident that the creation of the 
Department of Homeland Security and including the Border Patrol 
in the new agency will help us to use those resources more 
effectively to secure our borders and protect the homeland.
    In 1994, the U.S. Border Patrol developed a strategy to 
deter illegal immigration, the principal goal of which is to 
bring the border areas with the highest level of illegal 
activity under manageable control incrementally and 
effectively.
    Forward deployment of resources is the key to our success 
in implementing this strategy, which we have now named 
Operation Safeguard in the Tucson sector.
    The Tucson sector covers 261 miles of Arizona's border with 
Mexico. We have eight Border Patrol stations in four counties 
in southern Arizona and 1,701 Border Patrol Agents who cover 
the main Arizona corridors--Nogales, Douglas/Naco and the West 
Desert corridor.
    Smuggling organizations exploit border communities in the 
Tucson sector as primary staging areas and transportation hubs 
to move their illicit cargo, including illegal drugs and 
unlawful migrants. To counter their activities we employ an 
operational philosophy that can best be described with three 
terms--gain, maintain and expand.
    In the gain stage, we deploy resources to areas of highest 
activity to establish a foundation of operations and gain 
control. We then maintain the integrity of the controlled area 
by leaving sufficient resources in place as we then expand our 
focus outward from populated areas and highways leading away 
from the border.
    This approach flushes criminal elements out of their 
comfort zones and away from areas most easily and profitably 
exploited.
    The Tucson sector's operational response to illegal entries 
in more remote areas combines uniformed line presence, mobile 
interdiction, Special Response Team operations, Border Patrol 
Search, Trauma and Rescue Teams and Anti-Smuggling and Disrupt 
Unit operations. These agents and units respond to intelligence 
and reports from other law enforcement agencies and citizens in 
those areas.
    The key asset in the Border Patrol's Operation Safeguard is 
the Border Patrol agents themselves. I am extremely proud of 
these men and women for their diligent efforts, commitment and 
professionalism in implementing the safeguard strategy. Their 
efforts continue to make a positive difference in the Arizona 
communities we serve.
    Our agents' efficiencies and effectiveness are directly 
proportional to supporting enforcement infrastructure. The 
Tucson sector applies a mix of resources to support Operation 
Safeguard including surveillance technology, all terrain 
vehicles, horse patrols, vehicle barriers and other equipment. 
In addition, we have developed and applied deterrence 
technology in support of primary line teams and maintain 
deterrence in more active areas with fewer personnel.
    Operation Safeguard was initially implemented in Nogales, 
AZ in December 1998 and the results have been dramatic. By 
February 28, 2003, reported attempted illegal entries were down 
in the area by 72 percent and local arrests have decreased by 
70 percent.
    We have also achieved substantial enforcement gains along 
the border in Cochise County in the Douglas/Naco corridor. 
Incremental operational expansion since late 1999 has brought 
manageable control to a large part of this corridor's border 
area. This was achieved with an aggressive and sustained 
forward deployment of personnel and the strategic use of force-
multiplying deterrence equipment and technology.
    Recorded attempted entries in the Douglas/Naco corridor 
through the first 5 months of fiscal year 2003 were 103,000 
down 74 percent from the 397,576 recorded during the same 
timeframe in fiscal year 2000, which was the peak year for the 
corridor. Arrests in that corridor are currently at an 8-year 
low.
    The West Desert corridor is Tucson sector's largest 
corridor and remains our greatest challenge. It includes 120 
linear miles of border with Mexico, and compares in size in its 
entirety to Rhode Island, Connecticut and New Jersey combined.
    The sheer magnitude of the corridor's terrain, insufficient 
road access and lack of deterrence technology and 
infrastructure, lead to illegal incursions that degrade 
environmentally and culturally sensitive lands. Increases we 
have seen in drug and immigrant smuggling in this corridor 
highlight our successes in the Douglas/Naco and Nogales 
corridors, but also indicate that great challenges lie ahead in 
the West Desert corridor in the future.
    The best way to meet these challenges and establish 
deterrence in the West Desert corridor will be to create a 
certainty of detection and interdiction. To do this, we have 
adjusted our operations and redeployed assets and are working 
more closely with Mexican and Tohono O'odham Nation 
counterparts and are enhancing our air surveillance operations.
    Taken in combination, these steps should help us to gain 
the foothold we need to establish better control over the West 
Desert corridor.
    We can safely say that the U.S. Border Patrol has achieved 
a number of successes in the Tucson sector, but that much work 
remains to be done. I am confident that with the necessary 
resources and the continued support of the Congress, our State, 
local and Federal partners, we will continue to expand 
manageable control of the border and enhance homeland security 
in Arizona.
    Overall, Operation Safeguard has netted significant 
operational gains in the Tucson sector. We have achieved a 
reduction in arrests of 52 percent since 2000 and with the 
exception of a drop in activity immediately following the 
events of September 11, 2001, arrests in the entire Tucson 
sector are at an 8-year low.
    I thank you for the opportunity to present this testimony 
and I look forward to answering any questions that you might 
have.
    [The prepared statement of Mr. Aguilar follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.010
    
    [GRAPHIC] [TIFF OMITTED] T7703.011
    
    [GRAPHIC] [TIFF OMITTED] T7703.012
    
    [GRAPHIC] [TIFF OMITTED] T7703.013
    
    [GRAPHIC] [TIFF OMITTED] T7703.014
    
    [GRAPHIC] [TIFF OMITTED] T7703.015
    
    [GRAPHIC] [TIFF OMITTED] T7703.016
    
    [GRAPHIC] [TIFF OMITTED] T7703.017
    
    Mr. Souder. I thank you. And let me just say here because 
it is not going to come up during the questions, that in our 
organization meeting in Civil Service, it is one of our 
priorities this year to do the law enforcement part to the 
Border Patrol, which has been neglected for so long, but we are 
committed to trying to get that done legislatively as soon as 
possible and also I believe and we hope, working with Secretary 
Ridge, that we can deal with some of the pay inequities. We had 
been dealing with it appropriations last year and it was 
blocked in the authorizing, but I think now we might have more 
luck appropriating it and authorizing it. Obviously the budget 
is tight, but we have had severe problems with the additional 
recruitment in the Border Patrol when so many agents are 
applying to much better paying jobs at TSA and other places, 
and it is unrealistic for the American people to think and 
demand out of Congress that we are going to be able to maintain 
our borders when it is difficult to maintain the men and women 
of the Border Patrol because they are treated inequitably in 
the pay system. And we are trying to address that question.
    Mr. Aguilar. Thank you, sir. On behalf of the men and women 
of the Border Patrol, thank you.
    Mr. Souder. I am not sure who is next--Mr. Dom Ciccone. Did 
I say your last name correctly?
    Mr. Ciccone. Ciccone [pronouncing].
    Mr. Souder. Ciccone, OK, I'll make sure I get it. Thank 
you.
    Mr. Ciccone. Mr. Chairman, thank you for the opportunity to 
discuss our agency's current efforts to protect the visiting 
public, natural resources and staff on national wildlife 
refuges located along the Arizona/Mexico border. I am Dom 
Ciccone, Regional Chief, National Wildlife Refuge System for 
the Southwest Region of the U.S. Fish and Wildlife Service. 
With me today are the three refuge Managers of the refuges 
along the Arizona border. Mr. Roger DiRosa supervises the 
Cabeza Prieta National Wildlife Refuge, Mr. Wayne Shifflett is 
the manager of the Buenos Aires National Wildlife Refuge and 
Mr. Bill Radke manages both the San Bernadino and Leslie Canyon 
National Wildlife Refuges.
    The Fish and Wildlife Service is experiencing significant 
and lasting environmental damage caused by smuggling and 
illegal immigration across refuge lands throughout the 
southwest. Illegal activities pose a serious threat to the 
safety of refuge employees, volunteers, the public and our law 
enforcement officers. As enforcement efforts are increased 
around populated areas and ports of entry, there has been a 
dramatic shift in smuggling and undocumented alien crossings 
onto remote lands. Correspondingly, the amount of illegal drugs 
smuggled across refuges and other Department of Interior lands 
has skyrocketed in recent years, as has illegal immigration.
    The Service has 21 refuge officers along the southwest 
border to cover over 1 million acres and 153 miles of border 
from California to Texas. Clearly, we have limited staff 
resources to conduct a very difficult and dangerous job. Refuge 
officers are routinely involved with drug and undocumented 
alien interdiction through their normal patrol activities. Only 
through effective coordination with other agencies are we able 
to meet officer safety requirements. Unfortunately, resource 
damage continues to be a huge problem and the ability to 
achieve our agency conservation mission is severely 
compromised. We are also being forced to restrict public use 
programs along the border due to safety concerns and access 
issues.
    The Service has identified a need for an additional 33 
refuge officers on the border.
    Ongoing drug seizures and undocumented alien apprehensions 
on refuges in the southwest underscore the need to increase our 
level of preparedness along the U.S./Mexico border. At the end 
of 2002, over 100,000 pounds of marijuana, 508 pounds of 
cocaine and 22 pounds of methamphetamine were seized as they 
passed through border refuges. In addition, 100 vehicles were 
recovered, which was an increase of over 300 percent from 2001. 
The number of undocumented aliens apprehended increased 400 
percent from 2001, totaling 86,000 in refuges in Arizona and 
Texas alone. In fact, Mr. Chairman, only a week ago, refuge 
officers assisted U.S. Customs and Bureau of Land Management 
officers in the seizure of drugs and transport vehicles that 
had traveled across the Cabeza Prieta National Wildlife Refuge 
and into the Air Force's Barry Goldwater Range. A total of 
6,340 pounds of marijuana and three vehicles were seized. The 
drivers and occupants fled and were not apprehended; however, 
left in the vehicles were pouches for night vision goggles and 
radios for monitoring law enforcement transmissions.
    Impacts on natural resources are also troubling. Hundreds 
of new trails and roads have been created in crossings on 
refuge lands. This proliferation of trails and roads damages 
and destroys cactus and other sensitive vegetation, disturbs 
wildlife and causes soil compaction and erosion. At Cabeza 
Prieta Refuge, sensors placed by the U.S. Border Patrol on 
known routes recorded 4,000 to 6,000 undocumented alien 
crossings per month during the busy migrating months of April, 
May and June. Between 20 and 30 abandoned vehicles litter the 
refuge at any given time. During 2001, the Border Patrol 
apprehended more than 400 undocumented aliens each month on the 
Buenos Aires Refuge. This trend accelerated in 2002 as other 
traditional crossings became less attractive due to increased 
security. At Buenos Aires, there have been 25 burglaries of 
staff residences over the past few years.
    In a 5-year period on San Bernadino and Leslie Canyon 
National Wildlife Refuges, there have been 37 human-caused 
wildfires attributed to undocumented alien crossings.
    In summary, even though we have increased the deployment of 
our available law enforcement resources along the southwest 
border, we are struggling to meet our obligations regarding 
public safety and resource protection. Like many other 
agencies, the Service will have to use available resources more 
efficiently to improve our law enforcement program. Reviewing 
and managing our priorities, identifying problems and seeking 
out creative solutions that involve neighbors and partners will 
go a long way to protecting our refuges.
    Mr. Chairman, this concludes my statement, I would be happy 
to answer any questions that you and other members of the 
subcommittee have on the issue. Thank you.
    Mr. Souder. Thank you very much for coming over today, and 
also bringing the different refuge managers. We know it is a 
tremendous threat to the resources and I look forward to asking 
some additional questions.
    Mr. William Wellman. Bill, thank you for hosting us and 
touring much of the park yesterday, it was very informative and 
we learned a lot about the park as well as about your 
particular challenges along the border.
    [The prepared statement of Mr. Ciccone follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.018
    
    [GRAPHIC] [TIFF OMITTED] T7703.019
    
    [GRAPHIC] [TIFF OMITTED] T7703.020
    
    [GRAPHIC] [TIFF OMITTED] T7703.021
    
    [GRAPHIC] [TIFF OMITTED] T7703.022
    
    [GRAPHIC] [TIFF OMITTED] T7703.023
    
    [GRAPHIC] [TIFF OMITTED] T7703.024
    
    Mr. Wellman. Mr. Chairman, thank you for this opportunity 
to present the efforts being made by the National Park Service 
to protect visitors and resources in national parks and to 
mitigate the impact of illegal drug trafficking in border 
parks.
    Protecting national parks along the Mexican border is no 
longer about simply protecting landscapes, plants and animals. 
Today, national park rangers are helping fight for America's 
security in a battle posed by illegal drug smuggling and 
illegal immigration. At stake is the safety of our citizens, 
our agency's own employees as well as the health of some of our 
Nation's unique national treasures.
    Recently, there has been a lot of emphasis on what is 
happening in Organ Pipe Cactus National Monument, largely 
because of the death of Ranger Kris Eggle. This problem is not 
unique to Organ Pipe, it affects all of the National Park 
Service areas along the Mexican border. We have seven areas 
from west to east--Organ Pipe Cactus National Monument, 
Coronado National Memorial, Shamizar National Memorial, Big 
Bend National Park, Amistad National Recreation Area, Palo Alto 
Battlefield National Historic Site and Padre Island National 
Seashore. Altogether this comprises 365 miles of international 
border and 72 miles of seashore.
    To give you some idea of what has happened over the last 
few years, in 1997 at Organ Pipe, the park rangers interdicted 
less than 1,000 pounds of marijuana. Last year, with basically 
the same staffing, park rangers interdicted over 14,000 pounds 
of marijuana. At Amistad National Recreation Area, in 2000, 
1,300 pounds of marijuana was interdicted. By 2002, that number 
was up to 5,000 pounds. This year in January in Big Bend 
National Park, 6,000 pounds of marijuana was interdicted, which 
is more than the total for the previous year.
    Because of what is happening in the parks in damage to our 
resources and threats to our visitors, the Park Service has 
made a commitment to strengthen our protection programs in the 
border parks. This fiscal year, using money appropriated by 
Congress, we are going to add nine rangers to the staff at 
Organ Pipe, which more than doubles our protection staff.
    Seven million was also appropriated for a vehicle barrier 
along the entire 30 miles of boundary in Organ Pipe and 1 mile 
at Coronado National Memorial. We feel the place to start is by 
stopping the vehicles. In Organ Pipe, there are over 150 miles 
of illegal roads that have been created. The most dangerous and 
most damaging traffic that crosses the border comes by vehicle. 
In addition to that, we are increasing our ability with remote 
sensors.
    At Amistad, although money was not appropriated this fiscal 
year, our regional office is providing funding for four 
additional rangers to deal with the increasing situation there 
as well as funding for additional seasonal rangers at Big Bend 
National Park.
    One of the problems that we have not discussed yet along 
the border is the lack of communications. We are in very remote 
areas and communication is often a problem, not only between 
agencies, but with our own officers. This year, the National 
Park Service received appropriation to greatly improve our 
communications in southern Arizona with additional repeaters 
and radio equipment. That appropriation will also allow us, by 
the end of this year, to have 24-hour dispatch service 
available.
    Dealing with illegal immigration and border problems is not 
the primary mission of the National Park Service. The primary 
mission of the National Park Service is to protect park 
resources and provide safe enjoyable visits for the citizens 
that come to our parks. But with the level of illegal activity 
coming across the border in border parks, we cannot achieve our 
primary mission without being engaged in border protection 
activities.
    We know we cannot do this alone, we look forward to working 
with the new Department of Homeland Security. In the past, we 
have worked closely with the Border Patrol, Customs, 
Immigration, State and county law enforcement agencies. To 
correct problems along the border will take the efforts of all 
of law enforcement agencies along the border. We intend to do 
our share.
    The National Park Service has a statutory and moral 
obligation to protect our resources in the parks. Visitors and 
employees in the parks should be able to expect that if they 
need help, help will be available. We are trying to work toward 
those ends.
    I will be happy to answer any questions you might have.
    [The prepared statement of Mr. Wellman follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.025
    
    [GRAPHIC] [TIFF OMITTED] T7703.026
    
    [GRAPHIC] [TIFF OMITTED] T7703.027
    
    [GRAPHIC] [TIFF OMITTED] T7703.028
    
    [GRAPHIC] [TIFF OMITTED] T7703.029
    
    [GRAPHIC] [TIFF OMITTED] T7703.030
    
    [GRAPHIC] [TIFF OMITTED] T7703.031
    
    [GRAPHIC] [TIFF OMITTED] T7703.032
    
    Mr. Souder. Thank you very much. As I said at the 
beginning, the full statements will be in the record. I would 
also like to make sure that I put in the record at this point, 
after I hear testimony, a map that you gave me that shows the 
informal crossings and the patterns of how they go around the 
stations as well as a chart that documents some of the changes 
that you said. So I would like to have that after the National 
Park testimony.
    We also have a similar map for the Wildlife Refuge to the 
west that we would like to have reduced down and put into the 
record as well, showing that the concept of traditional border 
crossings is nigh on to irrelevant when you are trying to deal 
with it. I mean you have to have a basic point for those who 
are following the law, but there are whole networks of passages 
through the resources. It is very difficult to protect 
resources when people are tromping through them illegally and 
thousands of numbers.
    Next, Mr. Hugh Winderweedle, is that----
    Mr. Winderweedle. Winderweedle [pronouncing], that is 
correct.
    Mr. Souder [continuing]. The Port Director for the 
Lukeville Port of Entry for the U.S. Customs Service. Thank you 
for joining us and we look forward to your testimony.
    Mr. Winderweedle. Thank you, Chairman Souder, for the 
opportunity to address this committee and for the opportunity 
to appear before you today.
    My name is Hugh Winderweedle and I am currently assigned to 
the Port of Entry at Lukeville, AZ as the Port Director for the 
Bureau of Customs and Border Protection. I am accompanied today 
by Mr. Steve Minas, who is the Special Agent in Charge for the 
State of Arizona and Mr. Dennis Lindsay, who is the Special 
Agent in Charge for Air Operations for U.S. Customs and Border 
Protection for the State of Arizona.
    I would like to discuss the efforts of the Bureau of 
Customs and Border Protection to address the impact of the drug 
trade on border security at the Port of Entry at Lukeville, AZ 
and the challenges that exist along the U.S./Mexican border in 
the Lukeville area.
    The Port of Lukeville is located on the U.S./Mexican border 
between Lukeville, AZ and Sonoyta, Sonora. The Organ Pipe 
National Park lies adjacent to the port of entry on the west, 
north and northeast, separated only by an 80-acre tract of 
privately owned land with limited commercial development. 
Sells, AZ and the Tohono O'odham reservation are located 60 
miles to the east. The Port of Lukeville is remote, and aside 
from a small commercial development at the border and Organ 
Pipe National Park, the area is mostly undeveloped and 
inaccessible within a 50-mile radius in all directions. The 
remoteness of the area and proximity to a State highway lead to 
the area's appeal to drug traffickers and undocumented 
entrants.
    The Port of Entry at Lukeville services travelers from 6 
a.m. to midnight via three traffic lanes. The port is situated 
on State Route 85 and is the gateway to the Mexican resort area 
of Puerto Penasco, also known as Rocky Point. The port services 
442,00 vehicles arriving from Mexico each year, with a total of 
1.5 million passengers or pedestrians arriving via the port of 
entry. Although the great majority of arriving persons are 
vacationers and compliant travelers, a startling number of 
extraordinary incidents occur at or near the Port of Entry at 
Lukeville. We in the Bureau of Customs and Border Protection 
and our colleagues in the Department of Interior and the Bureau 
of Immigration and Customs Enforcement, are working together 
with our Mexican counterparts not only to secure our Nation's 
borders, stop or prevent illegal activity, but also to serve 
and help the citizens and travelers of Mexico and the United 
States.
    The Port of Lukeville intercepts large amounts of narcotics 
and a number of fugitives each year. For example, during 
calendar year 2002, the port intercepted over 5,000 pounds of 
marijuana. The interception of drugs and fugitives can often 
erupt into violence when desperate individuals resort to 
violent measures in an attempt to circumvent or evade 
authorities. In August 2002, a National Park Service ranger was 
shot by a Mexican national who had entered the Organ Pipe 
National Monument. On December 30, 2002, Mexican police were 
involved in a shootout with drug smugglers 50 yards south and 1 
mile west of the port of the port of entry. On February 13, 
2003, an inspector fatally shot a driver of a vehicle arriving 
from Mexico at the Lukeville Port of Entry. The subject fought 
with the officer, grabbing and dragging him with the vehicle in 
an attempt to run the officer over. As you can see, this 
violence sometimes ends in tragedy.
    However, close working relationships and coordination among 
Federal, State, local and Mexican authorities have prevented 
many potentially violent incidents from escalating. The 
training and dedication to duty has allowed our officers to 
respond appropriately during crisis and contain situations that 
otherwise may have resulted in greater injury or loss. Our 
hearts weigh heavy for those officers lost in the line of duty, 
but we stand fast and ready to continue protecting the American 
people by securing our borders. The Bureau of Customs and 
Border Protection has addressed the situation at Lukeville on 
many fronts. We maintain a vigorous training program to prepare 
our officers for the increasing challenge of anti-terrorism, 
the drug trade and border security. Technology also plays a key 
role in our efforts to secure the border. We currently use 
imaging systems, video surveillance, radio communications. 
Additionally, our officers are now wearing radiation detection 
devices to intercept sources of radiation that may be 
associated with weapons of mass destruction.
    The Bureau of Customs and Border Protection and many law 
enforcement agencies at Lukeville and the surrounding southern 
border, have orchestrated many special operations through the 
coordination of the High Intensity Drug Trafficking Area 
Center. These intense operations are crafted to consolidate law 
enforcement resources to gather intelligence, disrupt smuggling 
organizations and displace the activities of drug trafficking 
operations. HIDTA operations conducted with Federal, State and 
local agencies have successfully intercepted and disrupted 
smuggling activities.
    One striking aspect of these operations has been the 
displacement of smuggling activity. Increased law enforcement 
efforts and presence in one area, such as the Port of Entry at 
Lukeville, can redirect smuggling activities and cause an 
increase at another location, such as Organ Pipe Cactus 
National Monument. Increased drug smuggling and violence can 
present very challenging circumstances for all the officers in 
these locations.
    One component of the new Bureau of Immigration and Customs 
Enforcement, the former U.S. Customs Office of Investigations, 
currently has offices located in Sells, Three-Points and Ajo, 
AZ. Additional resources from the five other offices in Arizona 
are deployed in this area when operational needs dictate. This 
integrated interdiction/investigative team has experienced 
tremendous success in the area surrounding the Lukeville Port 
of Entry, to include the Tohono O'odham Nation. During calendar 
year 2002, this team was responsible for interdicting 103,000 
pounds of marijuana entering the United States from Mexico. The 
success is enhanced by our close working relationships with the 
Department of Interior law enforcement agencies, the U.S. 
Border Patrol, and our State, tribal and local law enforcement 
partners.
    The increasing level of violence in the border region is of 
concern to us all. Officers involved in shootings and high-
speed pursuits, which often involve law enforcement vehicles 
being purposely rammed by violators in their efforts to escape, 
are all too common. Because the surrounding area is remote, 
emergency services are not readily available. Frequently 
persons requiring emergency medical services are transported 
hundreds of miles from Puerto Penasco, Mexico to Phoenix 
through the Port of Entry at Lukeville. Helicopter Medivacs are 
not uncommon as the only means of reaching adequate medical 
care in time.
    Mr. Chairman, members of the committee, I want to thank you 
for the opportunity to testify about the unique challenges of 
protecting this remote, yet important part of our Nation's 
border. I can assure you that staff, management and every 
employee of the Bureau of Customs and Border Protection is 
fully dedicated and fully qualified to continue to protect our 
Nation's borders and the 280 million residents of the United 
States.
    I will be happy to answer any questions that you might 
have.
    [The prepared statement of Mr. Winderweedle follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.033
    
    [GRAPHIC] [TIFF OMITTED] T7703.034
    
    [GRAPHIC] [TIFF OMITTED] T7703.035
    
    [GRAPHIC] [TIFF OMITTED] T7703.036
    
    [GRAPHIC] [TIFF OMITTED] T7703.037
    
    Mr. Souder. Thank you for your testimony. As you may know, 
John Stanton from Customs is currently serving as a fellow with 
our subcommittee and occasionally he acknowledges other 
agencies involved in these efforts. It is great to have a 
Customs expert on our staff helping us with these issues.
    Our last witness on this panel is Mr. James Woolley, 
Assistant Special Agent in Charge of the Tucson Division 
Office, DEA.
    Mr. Woolley. Thank you and good morning, Chairman Souder, 
Congressman Shadegg. I am pleased to have this opportunity to 
appear before you today to discuss the role of the Drug 
Enforcement Administration [DEA] regarding the impact of the 
drug trade along the Arizona/Mexico border. My name is James 
Woolley, I am the Assistant Special Agent in Charge of the 
Tucson office of the DEA.
    At the outset, Mr. Chairman, I would be remiss if I did not 
preface my remarks by thanking both you and the subcommittee 
for your unwavering support of the men and women of the DEA and 
our mission.
    As a single mission component of the Department of Justice, 
the DEA is the world's premier drug law enforcement 
organization.
    It is important to remember that we are an investigative 
law enforcement organization whose primary duty is to disrupt 
and dismantle the world's most sophisticated drug distribution 
networks. For us, the interdiction of drugs is often the 
beginning of an investigation, rather than the end.
    Arizona has the unique role as both an importation and a 
transportation area out the southwest border and a metropolitan 
distribution center. Because of the substantial cooperation 
needed between the Federal, State and local law enforcement 
efforts, the collaboration of task forces help to define the 
responsibilities and improve the focus of the investigative 
efforts.
    Mr. Chairman, the DEA has found that cartel leaders are 
combining their loads and working together to smuggle their 
narcotics. We see this in Arizona and we know about it in Texas 
and southern California as well. The Sonoran/Arizona border has 
no one cartel controlling the smuggling activity. However, 
numerous Mexican drug trafficking organizations, not looking to 
compete for specific cartel territories, consider Sonora as a 
prime smuggling route.
    The unique character of the Sonoran/Arizona border creates 
an important tier of ``Gatekeeper'' organizations, with 
corridors through Yuma, Lukeville, Nogales, Naco and Douglas. 
These ``Gatekeepers'' are smuggling organizations that 
specialize in exploiting their areas for the sole purpose of 
getting drugs across the border and into the Tucson and Phoenix 
areas. The ``Gatekeepers'' can be characterized as well 
organized groups extended across the border communities that 
use their local ties to create a transportation infrastructure. 
They also maintain an intelligence apparatus along the border 
that targets the ports of entry as well as the areas in 
between.
    Once the drugs are smuggled across the border, they are 
taken to ``stash houses'' for distribution throughout the 
metropolitan Tucson or Phoenix areas.
    As I previously mentioned, DEA is primarily an 
investigative agency, not an interdiction agency. Our 
investigations allow us to share information with other law 
enforcement agencies, which is a vital responsibility of the 
DEA. It is the only way that we can effectively combat illegal 
narcotics. Mr. Chairman, I would like to highlight the 
collaboration of numerous partners at the Federal, State and 
local levels.
    One of DEA's main functions is to coordinate drug 
investigations that take place along America's 2,000-mile 
border with the Republic of Mexico. This effort, known as the 
Southwest Border Initiative, involves thousands of Federal, 
State and local law enforcement officers. Our strategy is 
simple: attack major Mexican-based trafficking organizations on 
both sides of the border by simultaneously employing 
intelligence which is enhanced by enforcement initiatives and 
cooperative efforts with the Government of Mexico.
    The El Paso Intelligence Center [EPIC], serves as the 
principal national tactical intelligence center for drug law 
enforcement. It has a research and analysis section as well as 
a tactical operations section to support foreign and domestic 
intelligence and operational needs in the field.
    EPIC manages a highly effective Watch Program, to provide 
timely tactical intelligence to the field. This coordination 
brings together in one place the data bases of every one of the 
participating agencies. EPIC also has its own internal data 
bases which, combined with other agency information, provides 
the single most responsive, direct conduit available for the 
tactical intelligence center supporting every law enforcement 
agency in the Nation.
    Another example of how DEA interrelates with the other 
agencies along the border is our participation in the High 
Intensity Drug Trafficking Area [HIDTA] program, whose goal is 
to reduce drug trafficking activities in the most critical 
areas of the country. The HIDTA program develops partnerships 
among Federal, State and local drug control agencies in 
designated regions by creating enforcement task forces and 
investigative support centers where they can synchronize their 
efforts. Arizona belongs to the Southwest Border HIDTA, along 
with southern California, New Mexico, west Texas and south 
Texas.
    The DEA considers one of its greatest assets the State and 
local task forces with whom we work. Participating State and 
local agencies have a tremendous amount of input and are 
actually force multipliers, adding additional resources to DEA 
efforts. We participate in more than 210 task forces and have 
over 1,900 task force officers on board nationwide. These 
officers are able to access DEA's Narcotics and Dangerous Drugs 
Information System for data base checks. Those assigned to the 
task forces are deputized as Federal law enforcement officers, 
enabling them to follow leads and conduct investigations 
nationwide.
    Drug trafficking organizations operating along the Arizona/
Mexico border continue to be one of the greatest threats to 
communities across the Nation. The power and influence of these 
organizations is pervasive and continues to expand to new 
markets across the United States.
    In conclusion the DEA is deeply committed to intensifying 
our efforts to arrest the leadership and dismantle these 
organizations that are trafficking.
    Mr. Chairman, thank you for the opportunity to appear 
before you today and I would be happy to answer any questions 
that you may have. Thank you.
    [The prepared statement of Mr. Woolley follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.038
    
    [GRAPHIC] [TIFF OMITTED] T7703.039
    
    [GRAPHIC] [TIFF OMITTED] T7703.040
    
    [GRAPHIC] [TIFF OMITTED] T7703.041
    
    Mr. Souder. First, let me thank all of you for your long 
time efforts and make sure you extend that on behalf of the 
Congress to your employees.
    Second, we are certainly going to go through multiple 
rounds of questions here because this is a tremendous 
opportunity for us. First off, we are not getting buzzed every 
5 minutes to go vote and we can actually focus on the issues 
and having all of you in one place is a tremendous opportunity.
    I am going to go through some of the different--each one of 
you--I am going to ask Mr. Lindsay some questions on the air 
after we kind of establish a little bit of a baseline.
    So let me first start with the Border Patrol, Mr. Aguilar.
    One thing for my own clarification, the Yuma sector starts 
where, is it west of the wildlife area where the range is--I do 
not know where that is.
    Mr. Aguilar. Yes, sir, it actually starts at the Yuma 
County line, which it takes in a part of the Barry Goldwater 
also.
    Mr. Souder. Takes in part of what?
    Mr. Aguilar. The Barry Goldwater firing range.
    Mr. Souder. OK, so your sector goes to the edge of the 
wildlife area?
    Mr. Aguilar. Yes.
    Mr. Souder. Do you have any presence in the wildlife area 
at this point?
    Mr. Aguilar. In the Cabeza Prieta and the Organ Pipe; yes, 
sir, we patrol those areas on a daily basis.
    Mr. Souder. Can you give your reaction to the concept of 
fencing in the Tohono O'odham and also a road along the border?
    Mr. Aguilar. First of all, Mr. Chairman, the accessibility 
and mobility along the immediate border is absolutely essential 
to our effective and efficient patrolling of the border out 
there. The fencing that we speak about today, I believe relates 
to border barrier that is being looked at by the Organ Pipe out 
there. And that of course, will stop the vehicular traffic, but 
it will not stop the pedestrian traffic. So I just wanted to 
make sure that I clarified that point.
    Upon setting up that border barrier, we also, from an 
enforcement perspective, need to have a capability to access it 
and be mobile in and around the area, in order to attempt to 
address any kind of breaching that may still be attempted out 
there.
    From an enforcement perspective, it would be of tremendous 
assistance wherever that is placed, as long as we have the 
capabilities to be able to be responsive to any continuing 
attempts to breach it, as I said.
    The criminal element will in fact look to evade that border 
barrier. So it is important that we as an enforcement family 
take that into consideration and make the proper plans to 
address any resultant impacts of an immediate placement of 
either border barriers or fencing along our Nation's border.
    Mr. Souder. If we put a fence in this area, we are going to 
put more pressure on this part of the aisle.
    Mr. Aguilar. Yes, sir.
    Mr. Souder. And we have to be thinking a step ahead.
    So you feel that--if I can make sure that I get it in the 
record and understand myself--when you get over 50, it gets a 
little harder sometimes--that if we did fencing beyond the 
Organ Pipe in either direction, there would need to be an 
access road along that as well or the fence would be irrelevant 
because somebody could cut it and you would not be able to get 
to it.
    Mr. Aguilar. Yes, an access road in order to patrol that 
area, to continue patrolling and continue that deterrence 
presence of not only the Border Patrol agent or the Customs 
officer that is going to be out there, but in addition to that, 
when our airplanes are flying over it and they spot something, 
they can vector our people into any kind of breaching that is 
occurring out there. In addition to that, of course, there is 
what we refer to as an enforcement model along our immediate 
border that takes in either border barrier, fencing, sensors, 
remote video systems--a combination of that type of 
infrastructure that will overall create that certainty of 
deterrence in order to maintain that deterrence posture along 
our Nation's border.
    Mr. Souder. As a practical matter, what does it mean if we 
restrict vehicular traffic but not pedestrian traffic? Does 
that mean that they cannot penetrate as far in, so they have 
farther to walk, so is it a deterrent in that sense; not as 
many people can be transported?
    Mr. Aguilar. It depends on the area. In the area that we 
are referring to today, I think it would be a two-pronged 
result. One is that the vehicular traffic would not be able to 
drive in, but at the same time, pedestrian traffic would 
probably continue. And in those areas, as you have seen over 
the weekend and I believe you have gone over this area in the 
past, there are really remote areas, tremendously hot during 
the summer, so it would cause some other problems out there in 
the area of continued efforts to get through those areas.
    What the smugglers of narcotics, smugglers of people, are 
looking for are a means of egress away from the border. What 
they are shooting for is in fact those highways leading away, 
leading to highway 10, leading to highway 8 into Phoenix or the 
staging areas that I think all of us have basically spoke about 
this morning.
    Mr. Souder. Would you agree that most of the narcotics and 
people move at night?
    Mr. Aguilar. I do not have a percentage on that, sir. A 
large percentage of it would, but in this area out here, we 
have seen a lot of trafficking during the day also.
    Mr. Souder. Let me then--this is an important assumption, 
let me throw in a couple of things. Would you agree that most 
that cross the border immediately are at night and then they 
are still moving in the desert areas during the day, or are you 
saying many even cross the border during the day?
    Mr. Aguilar. They cross the border during the day also and 
movement is continual.
    Mr. Souder. Two-thirds at night, one-third in the day or 
50?
    Mr. Aguilar. The best way I can probably answer that, sir, 
we split our resources for addressing the border, we have a 20/
40/40 split, if you will--80 percent of our assets are deployed 
at night, the border patrollings, if you will, because that is 
when we see an upswing on the activity.
    Mr. Souder. Do you sense that varies some depending on 
whether there is a fence--in other words, if we put a shield up 
at Organ Pipe and you have a road and you have agents 
patrolling, you are going to push it to where people can 
disguise themselves more. In the area like Tohono O'odham where 
it is unprotected, would it matter night or day other than the 
temperature?
    Mr. Aguilar. By placing up the fence barrier and the 
supporting infrastructure, by maintaining that presence, 
whether it be physical by way of high profile, high visibility 
or electronic surveillance capabilities, I think the impact out 
of this part of the country would be pretty much 24 hours a 
day, because of the remoteness and because of the hardship that 
it would be to get to the remainder of the United States. But 
again, this is including an entire enforcement package as close 
as possible to the border; yes, sir.
    Mr. Souder. Now you have put together an impressive jerry-
rigged system that was more mobile with cameras and other types 
of things over in the Douglas/Sierra Vista sector. Has that 
been picked up in other places, do you see that being able to 
give us more mobility to find people?
    Mr. Aguilar. Yes, sir, especially out of this part of the 
Tucson sector. The technology that you are referring to is part 
of that deterrence technology that I spoke about earlier. The 
skywatch is where we basically go up into the air, give us a 
hydraulic platform to have a lot more visibility and 24/7 
visibility on the border, across the border, to see what's 
coming our way and things of this nature. From a deterrence 
posture, people have basically learned that when those 
platforms are up in the air, that in itself is a deterrent.
    We are progressing beyond that in that we are working with 
the Nation for some of these border barriers that the chairman 
spoke about earlier, and things of that nature.
    Mr. Souder. Thank you. Mr. Shadegg.
    Mr. Shadegg. Thank you, Mr. Chairman.
    Mr. Aguilar, let me begin with you because I am curious. 
Your testimony before us today seems to suggest that the Tucson 
sector is a huge success and maybe it did not go quite this 
far, but it seems to report that you have had a great deal of 
success there, reduced the number of arrests and made progress 
there. And I have been aboard Operation Skywatch, I have been 
aboard a helicopter over the Nogales area, I have been in 
helicopters perhaps with you in the Sierra Vista area. It seems 
to me that the corridor here on the west side is just wide 
open. To me, it looks like we have got a dramatic amount of 
resources from perhaps Nogales east and nowhere near that level 
of resource from Nogales west. Is that accurate?
    Mr. Aguilar. That is accurate, sir. The achievements that I 
spoke to earlier during my testimony related to those areas in 
the Nogales, Sonora area of operation and the Douglas/Naco 
area. In this area, what we refer to as the West Desert area, 
is an area of about 120 miles and that is just Tucson sector, 
that is not----
    Mr. Shadegg. Let me stop you because I want to understand 
these terms. West sector area is from Nogales west, does it 
start in Nogales?
    Mr. Aguilar. The western corridor--the Border Patrol report 
refers to the west as a corridor, basically starts at the 
Sasabe area----
    Mr. Shadegg. OK, Sasabe.
    Mr. Aguilar [continuing]. Maybe a little bit east of there. 
And continues on out to the Yuma County line.
    Mr. Shadegg. All the way to the California line, or just 
the Yuma County line?
    Mr. Aguilar. Yuma County line. The Yuma sector of the 
Border Patrol takes in the remaining desert area of the desert 
out there.
    Mr. Shadegg. So from the Yuma County line west, that is not 
the area we are talking about, we are talking about from Sasabe 
to the Yuma County line.
    Mr. Aguilar. Yes, sir, and within that area, of course is 
the Tohono O'odham Nation with approximately 78 miles.
    Mr. Shadegg. Start at the west side of that, with regard to 
the Barry Goldwater range, are your operations restricted in 
the area with regard to the Barry Goldwater range?
    Mr. Aguilar. They are restricted in the sense that every 
time we go in there, sir, we call the range and advise them 
that we have a need to go in there. They work with us very 
closely. We get approval from them to go in there and work the 
situation that we need to work, whether it be an operation or 
something that we have intelligence on.
    Mr. Shadegg. Does that apply to both going in by ground 
vehicle and by helicopter?
    Mr. Aguilar. Yes, sir.
    Mr. Shadegg. You are allowed to go in by helicopter?
    Mr. Aguilar. Yes, sir.
    Mr. Shadegg. But only after you have obtained permission.
    Mr. Aguilar. After we notify them that we have need to go 
in there and they will give us certain limitations. If their 
aircraft are flying at a certain level, we have to stay below 
or we have complete access if it's not an active range day.
    Mr. Shadegg. At the pace we are continuing to improve your 
resources, how long will it take with the same level of 
intensity of enforcement to the area from Sasabe to the Yuma 
line that we have from Sasabe east?
    Mr. Aguilar. I would hesitate to give you an answer on a 
time line for that, sir, because of course, that's dependent on 
when we got the resources that we have gotten on some of the 
other corridors. Out here in the West Desert corridor, one of 
the things that is going to be critical is going to be 
infrastructure such as border barriers, the fencing, the 
technology that we referred to. And of course, all that depends 
on the procurement and things of that nature.
    Mr. Shadegg. Safe to say it does not look good right now 
for obtaining the resources to do to the west what you are 
doing to the east. We are way short of resources to do that, 
are we not?
    Mr. Aguilar. We are short of resources, sir, but as with 
the other corridors, we continue to get built up in the area of 
technology and infrastructure; yes, sir.
    Mr. Shadegg. As I mentioned a few minutes ago, I was at the 
Lukeville Port of Entry a few weeks ago and saw the fencing in 
that area. I also noticed the roads in that area. On the 
southern side of border, where we were, and we were east of 
Lukeville, on the Mexican side of the border, there is a very 
good road, well-maintained, you can drive it--it was a dirt 
road, but you could drive it at 30 or 35, maybe even 40 miles 
an hour, access it pretty easy. On the Arizona or U.S. side of 
the border, where the fence was built, there is a pathetic road 
that you could perhaps do 2 or 3 miles per hour on. And the 
same is true of the road west of where we were, west of 
Lukeville, and not far west of Lukeville, you have of course, 
Mexican Highway 2 with very high speed traffic.
    I am curious, my friends in Congress talk about fencing. I 
think they are clueless about the degree of lack of fencing 
that we have, and for example, the information we gathered down 
there about fencing being stolen and moved south and how 
actually the fencing that has moved south does more good than 
the fencing that is right on the border, because the fencing 
that is on the border gets cut so quickly. Would we be better 
off, speaking of your point about infrastructure, to simply 
build a high-quality gravel road all along the U.S. side of the 
border in this west sector so that we could move agents up and 
down that border and we could watch footprints and simply have 
access where we do not have that access now.
    Mr. Aguilar. Yes, sir, that would certainly help quite a 
bit, but I feel like I need to clarify also that immediate 
accessibility to the immediate border is not only critical, it 
is absolutely essential. In addition to that, there is 
supporting infrastructure that is required with that border 
road. For example, one of the challenges that you spoke to 
indirectly there are the environmental concerns that we deal 
with in a lot of this area out here. A smuggler will go through 
the desert, will go through the Organ Pipe, will go through the 
Barry Goldwater range. We are restricted in actually following 
these people out there unless it is an emergency situation. In 
a tragic situation like when Ranger Eggle got shot out there, 
of course, we disregard all that. But at all other situations, 
we have to follow the statutes and regulations and policy that 
impact our ability to patrol the border out there.
    So that immediate border road, absolutely. But that is the 
reason I used the terminology a little bit ago about the need 
for an enforcement model. We have a need also for what we refer 
to as a sign cutting capability, which basically gives the 
ability to track anything that may have breached that primary 
road, in order to access anything that has breached that first 
road or that first deterrent posture on the line. That can and 
should be very compressed to the border, so that immediate 
deterrence impact is as close as possible on the border as is 
required in order to maintain the security of our borders.
    Mr. Shadegg. Mr. Chairman, I would probably have a followup 
question along the lines of what you asked to the chairman of 
the Tribe, as to whether you believe you need exemption from 
certain environmental requirements in a zone along the border. 
I think I heard the answer to that question as yes. I think I 
also heard that you may need clarified authority with regard to 
environmental protection to track individuals who are further 
in the United States than that; is that right?
    Mr. Aguilar. Yes, sir.
    Mr. Shadegg. I yield, Mr. Chairman.
    Mr. Souder. And the fencing that we are talking about for 
Mr. Wellman is not like the fencing that is there currently. I 
believe there is a terminology difference between a barrier and 
a fence, is that correct?
    Mr. Wellman. Yes, we are strictly looking at a vehicle 
barrier and it will not be able to stop pedestrians.
    Mr. Shadegg. Mr. Chairman, maybe I could ask a followup. I 
would like each of the witnesses to testify on the question 
that I asked and that is would a road--given limited resources, 
would a high-speed access road that would let you access the 
border be, in the short run, a more valuable tool than yet 
another fence or vehicle barrier.
    Mr. Aguilar. Is that for me, sir?
    Mr. Shadegg. I think you answered it, you said the road 
would be very helpful. I was interested in what the other 
witnesses have to say.
    Mr. Ciccone. From Fish and Wildlife Service perspective, I 
see how the road would help. I would be concerned about 
creating a road like that without some type of barrier or fence 
with that road.
    Mr. Wellman. Actually as part of the vehicle barrier, the 
road that you saw will be improved somewhat. It will not be a 
high-speed road, but it will be improved considerably over its 
current condition.
    Mr. Shadegg. I do not think you could build that fence that 
I saw designed without building a better road.
    Mr. Wellman. You are absolutely right.
    Mr. Souder. Did you not say they are going to have to fly 
in parts of it though?
    Mr. Wellman. There are some parts on the steeper slopes 
where we will not build a road and would like to fly the 
barrier in and place it on the surface.
    Mr. Souder. Because we are not talking about a flat area. 
When we look at that whole border, some parts are amenable to 
roads and some parts are not.
    Mr. Wellman. And some parts are not. In the area that is 
not, there will be a road that will go around so that you can 
control the whole border in Organ Pipe.
    Mr. Souder. Is that true in the Wildlife areas too?
    Mr. Ciccone. There are definitely some very rugged areas, 
yes.
    Mr. Shadegg. Mr. Wellman.
    Mr. Wellman. To finish answering your question, improving 
the road will help, but given the limited numbers of people, I 
would agree with the Chief, we need the barriers as well. A 
barrier will work 24 hours a day and it is unlikely in the near 
future we are going to be able to have that entire section of 
border manned 24 hours a day.
    Mr. Winderweedle. Congressman, as to the road, of course 
the road and barrier has no direct impact or influence over the 
port of entry. But I would offer the comment that you are 
talking about two what should be concurrent infrastructure 
developments and one is merely of no value without the other.
    Mr. Woolley. From the DEA perspective, I would say that 
anything that would facilitate a law enforcement presence in 
the area certainly would help, but it would have to be combined 
with the barrier and additional resources to do the patrolling.
    Mr. Souder. Thank you. Mr. Ciccone, I wanted to try to 
figure out a little bit more about your challenges.
    Currently, is there any presence of Federal agencies along 
the border other than the refuge--in your refuge?
    Mr. Ciccone. Other Federal law enforcement officials?
    Mr. Souder. Yes.
    Mr. Ciccone. Well, yes, we do have cooperation with Border 
Patrol, with Customs, with other State and local authorities 
that help, that we work with, and who assist us on the refuge.
    Mr. Souder. You do not have any official crossing in your 
refuge?
    Mr. Ciccone. Border crossings?
    Mr. Souder. Yes.
    Mr. Ciccone. No official ports of entry.
    Mr. Souder. And there is no road along the border currently 
that you are allowed to go on, as opposed to illegally go on?
    Mr. Ciccone. There is no road right along the border that 
is open to the public and the roads that are along the border 
are very rough.
    I should clarify, we do have on our Buenos Aires Refuge, we 
are adjacent to the Sasabe Port of Entry, but nothing that is 
right within the refuge.
    Mr. Souder. And does the Border Patrol have a presence 
along the not very passable road?
    Mr. Ciccone. The Border Patrol does use those roads, as do 
our refuge officers and I am sure other law enforcement 
agencies.
    Mr. Souder. And you testified that you had significant drug 
seizures, you had lots of illegal--in fact, was it in your 
testimony that you said it was predominantly in 3 months, that 
you thought that the biggest months were February, March, 
April?
    Mr. Ciccone. There was a period of time of I believe April, 
May and June where the indications from the Border Patrol 
sensors on I believe the Cabeza Prieta Refuge that between 
4,000 and 6,000 undocumented alien crossings per month during 
the months of April, May and June. I cannot say for sure if 
those are the busiest months, but those were----
    Mr. Souder. Let me ask a couple of general questions and 
then when I come back, I have very specific questions for the 
Wildlife Refuge. Is it true, because often what we hear in 
Congress are numbers extrapolated based off the highest month, 
that there are periods of the year where this is more intense 
on the Arizona border or is it uniform across the year? Do you 
know, Mr. Aguilar?
    Mr. Aguilar. Specific to illegal aliens?
    Mr. Souder. Yes.
    Mr. Aguilar. Or narcotics smuggling?
    Mr. Souder. I was going to ask narcotics smuggling as a 
separate part of the question.
    Mr. Aguilar. Basically it varies throughout the year. At 
the beginning of the calendar year and on through about the 
month of April or May, is when we typically see an increase in 
illegal alien activity crossing the border. And then what we 
refer to as harvest season, unfortunately, for the marijuana 
crop where during certain times of the year, we see an increase 
because the smugglers attempt to bring it in as it is being 
harvested.
    So there is a little bit of a cyclical activity, if you 
will, throughout the year.
    Mr. Souder. And is there also a cyclical--you know, for the 
individuals who may be coming back and forth a couple times of 
the year for certain jobs, which is a different type of threat 
to the system, do they get counted multiple times, are they in 
and out one time illegals who are coming to the United States 
and leaving their family back in the country--should they be 
taken out of that system of guest worker numbers? I get these 
phenomenal numbers and the numbers do not gibe with the 
practical numbers that we hear from each subsection.
    Mr. Aguilar. Yes, sir, what you are referring to there is 
what we refer to as recidivists--speaking to the illegal 
immigrants now--recidivists, we do have a recidivism rate that 
varies along the southwest border. I do not have the most 
immediate figures for my sector, but the last time I looked at 
them was about a couple of months ago and at that point it was 
varying anywhere from 18 to 20 percent, depending on what month 
of the year we are looking at, things of this nature. We have, 
as an example, individuals that we will catch, we will 
apprehend 10, 12 times, they will be crossing. There are 
certain thresholds that will be met in situations like that. 
And then we have intelligence sources south of the border that 
tell us that people are turning around, going back home because 
after 15, 20, 30 times they have tried, they have either been 
apprehended, turned back, deterred; so again, we have an ident 
system, I believe you are familiar with that system, that 
captures every--I should not say every--close to every arrest 
that we make, we capture biometric information in order to try 
and track that recidivist rate.
    Mr. Souder. Mr. Woolley, is the drug pattern at all 
cyclical--two part question. Is the drug pattern cyclical 
depending on the marijuana harvest season or does it tend to 
stay kind of uniform through the year, whereas immigration may 
be somewhat in flux. And then, the second thing is, what is 
your estimate of--just rough--and Mr. Aguilar and others, if 
you have any input into this--what percent of the illegal 
immigrants are carrying at least small doses, if not large 
doses. Clearly the largest quantity of drugs come in the big 
interception of a huge load. But you have all sorts of things, 
like we saw yesterday, a painted jug, which was comparatively a 
small amount. But what percentage of the illegals, 10, 20, 30, 
does it vary by time of year; if there are more coming in the 
spring, do a lower percentage have narcotics because narcotics 
are going to move other than the harvest season. Some insight 
if you have it.
    Mr. Woolley. Yes, sir, thank you. I would agree 
historically with what the Chief Patrol Agent said about the 
marijuana trafficking, it was a harvest season type trafficking 
pattern. But in the last several years, we have seen that there 
is really no slowdown in the amount of at least marijuana 
coming through the borders. The only time we see kind of a dip 
is around Easter time, for whatever reason. But our 
intelligence indicates that not only is the harvest fully 
functional, but that there are stockpiles and they are able to 
stockpile the marijuana and then if there is a slowdown through 
the harvest completion, that they go into the warehouses and 
bring it across there.
    When you talk about methamphetamine or cocaine, there is no 
shelf life, so that can come across at any time and it is 
coming across in increasing numbers.
    To answer your question about percentage on illegals 
carrying narcotics, I would not venture a guess on that, but 
what I would say is if they are coming up here looking for 
employment, that I know there is an increased monetary 
incentive for those folks to backpack across. And seeing the 
seizures and the weights of some of the backpacks, several 
hundred pound loads. I am very impressed that these folks can 
walk extended miles carrying these types of loads. So I know 
there is a monetary incentive, but I would not venture a guess 
on the number of illegals that are actually employed in that 
capacity.
    Mr. Souder. In your arrests at the border, Mr. Aguilar, do 
you have a rough percentage how many have narcotics on them?
    Mr. Aguilar. No.
    Mr. Souder. They can dump that. Is it different in the east 
sector of Arizona from the west?
    Mr. Aguilar. Probably the best way for me to answer that, 
sir, is the following--from the beginning of the fiscal year 
through yesterday, the 9th, there were 741 Border Patrol 
incidents of interdiction--741. Now within each one of those, 
we have had 10, 12, 15 people involved in each incident, 
accounting for 188,000 pounds of marijuana. The total 
apprehensions year to date right now in this sector is 122,000. 
So I am giving you those numbers, it is a small percentage of 
the people we encounter being involved with narcotics. Of the 
people that we do encounter involved in narcotics, I would have 
to say that the vast majority of them are in fact illegal in 
the country, employed, as Mr. Woolley said, backpacking, muling 
the stuff into the United States, getting it across and into 
the United States.
    Mr. Souder. Basically the data on the percent that have 
narcotics on them at the time they are apprehended is less than 
1 percent?
    Mr. Aguilar. Yes, sir, I would say that is about correct.
    Mr. Souder. I will come back to Fish and Wildlife.
    Mr. Shadegg. I would like--Mr. Ciccone, I would like to 
give you or Mr. DiRosa an opportunity, since this map is now in 
the record of this hearing, to describe what it depicts and to 
give the committee, in terms of testimony, some information on 
what these lines mean, what the blue symbols mean and the 
degree of environmental damage that is being done by what they 
depict. Do you want Mr. DiRosa to do that?
    Mr. Ciccone. Yes, sir, I would like to defer to Mr. DiRosa.
    Mr. Shadegg. Mr. DiRosa, you will need to come forward and 
we will need to swear you in.
    Mr. Souder. Would you raise your right hand?
    [Witness sworn.]
    Mr. Souder. The witness responded affirmatively.
    Mr. Shadegg. If you could just put into the record some of 
the information describing this and what it tells the 
committee.
    Mr. DiRosa. If you will look in the left hand corner, you 
will see a legend which depicts the various symbols and color 
designations which you see on the map.
    The red north and south lines are clandestine roads created 
by smugglers--both people and drug smugglers.
    Mr. Shadegg. If I could interrupt, those roads are all 
illegal?
    Mr. DiRosa. They are all illegal. The only legal roads for 
public use is a corridor that runs east and west and then one 
part of it goes north about--further to the west, a little 
more. Those are public use roads. There are some other roads 
called administrative roads that can be used by law enforcement 
and that we can use, but this is a designated wilderness area 
and we have to do what is called work with minimum tools. We 
ourselves do not have the capability to use those 
administrative roads whenever we want, because of the 
wilderness designation. Illegals coming through the refuge, of 
course, are paying no respect to any regulations of any sort. 
The amount of damage caused by these roads is extreme.
    You will notice the little blue symbols, vehicles, little 
blue vehicles, they indicate abandoned vehicles, those vehicles 
that have been abandoned by mostly drug dealers, they have 
gotten stuck, they have broken down, sometimes they will stash 
their loads in the area and we will find it. We have to get 
those vehicles out of the wilderness area which causes 
additional damage as well.
    Other symbols that you will see there are points where 
there have been a number of deaths, there are points where much 
of our border fencing has been stolen and now we are getting 
ingress from Mexican domestic stock. There are points showing 
drug apprehensions.
    This is a drop in the bucket really, this is only what we 
can gather. There are additional data that are coming that we 
will put on the map. The map is a living document.
    Mr. Souder. I wanted at the same time to have Mr. Wellman 
to give matching testimony, similar roads in the park. You told 
me yesterday that one of the things you had done on one of the 
roads is put some trenches to the side and that you have 
disabled quite a few vehicles. Could you describe that, and how 
many roughly?
    Mr. Wellman. Well, as you saw yesterday, this is typically 
very open country, so it is difficult to stop vehicles. We have 
had success two places, one along South Puerto Blanca Drive, 
but we made the ditches considerably deeper, approximately 3 
feet deep. In the first year after we did that, we trapped over 
20 illegal vehicles in the ditches.
    On one of the illegal roads that you see that goes to a 
very tight wash, we were able to take Jersey barricades, the 
type you see on the side of the highway, and put them in the 
narrow point of the wash and have actually stopped use on that 
route. That is probably the only 100 percent effective thing we 
have done and it is probably the only one that will be 100 
percent effective until they can figure out some way to go 
around it.
    Mr. Souder. You also use some strips?
    Mr. Wellman. We do use tire replacement devices on a fairly 
regular basis, usually when vehicles are fleeing back to Mexico 
at high rates of speed.
    Mr. Souder. And how many cars have you found through the 
use of that.
    Mr. Wellman. Year before last, we successfully spiked 17.
    Mr. Shadegg. Mr. DiRosa, I just wanted to point out, 
immediately north of the entire refuge is the Barry Goldwater 
Range, is that correct?
    Mr. DiRosa. That is correct, and to the west side as well.
    Mr. Shadegg. So anybody transitting the refuge would either 
have to enter the Range, dangerous territory, or a second 
concern that I believe I understood to be expressed was that 
they transit the wildlife refuge and then once they are further 
north, go back over into the park and do damage in the park, is 
that correct?
    Mr. DiRosa. That is correct. We are really not the area of 
choice that smugglers like to use because we are so remote and 
then when smugglers get through us, they have to negotiate a 
gunnery range. They tend to try and move back to the east to 
access the highway. The reason they are now using the refuge is 
because of the greater enforcement that Border Patrol has been 
showing to our east and also with Park Service beefing up, we 
are going to get much more activity in that respect.
    Mr. Shadegg. When you say they are not the area of choice 
and they like to get back into the national monument, that 
would explain the reason for all of these roads over here on 
the eastern end?
    Mr. DiRosa. That is correct.
    Mr. Shadegg. Thank you very much.
    Mr. Souder. Let me followup with some additional questions 
on this refuge. The refuge was created for bighorn sheep? What 
was the original--and what are your predominant featured 
species?
    Mr. DiRosa. The refuge, if you will look at the enabling 
legislation for the refuge, it did not specifically mention 
bighorn sheep, however, if you follow the information, 
legislation that led up to that point, it spoke very heavily 
about bighorn sheep. So that really was one of the reasons the 
refuge was created. And then it goes on to say for the 
resources of that time, it mentions grazing resources, which is 
a moot point now. That is not part of our mission any more, we 
are not jointly managed with the BLM, we are a full national 
wildlife refuge.
    So species of concern for us regarding the illegal traffic, 
that will probably have the most impact is the endangered 
Sonoran pronghorn, also called antelope; the long-nosed bat, we 
have already documented maternity nests that have been 
abandoned directly because of smuggling activity. And just the 
overall natural resources of the refuge. It is very hard to 
quantify.
    Mr. Souder. Is there something unique in this area, where 
the species are at, have they tried to move to the west?
    Mr. DiRosa. Many of the species cannot flee. The Sonoran 
pronghorn are a very mobile animal, however they do tend to 
congregate in the eastern portion because that is where the 
resources are. we get approximately 8 to 9 inches of rain on 
the eastern portion, only 3 inches to the west. And these 
animals will follow the forage and the water resources.
    Interesting comments are received from the public that the 
illegals or smugglers have much more access to the refuge than 
the citizens of the United States do, because we have to shut 
down some of these areas because of the endangered nature of 
the pronghorn, say for instance in the fawning season this 
year, we will prohibit people from recreating in the refuge, 
yet the illegal traffic is continuing to escalate and both the 
traffic and the law enforcement activity damage the resources.
    Mr. Souder. My understanding is that in the park, while 
there has been damage to cactus, it is not substantial, is that 
because it is not endangering the Saguaro or the Organ Pipe, 
although theoretically because of the fewer Organ Pipe, it 
could. And if you could also elaborate on--I am floundering for 
the term, but whether it be cactus, flowers, other things, 
habitat that supports both in the monument and in the refuge, 
the impact of increasing traffic, both human and narcotic and 
if there is a narcotics nexus, clearly there are random 
incidents with narcotics, but I am not sure narcotics is the 
primary threat to the resources.
    Mr. Wellman. The Organ Pipe Cactus is not endangered. We do 
lose cactus to illegal activities, particular vehicles coming 
into the park running over cactus. When sleeping sites are 
cleared under trees, they clear out cactus seedlings. So we are 
losing a substantial amount of resources, but not to the point 
that it is endangering the existence of the cactus.
    Probably a bigger impact on our wildlife, and I suspect it 
is the same in Cabeza, in Organ Pipe, there are only two 
permanent water sources and one happens to be right on the 
border, one is about in the middle of the park. Beyond those 
two springs, all of the water available for wildlife in Organ 
Pipe is found in tanahas, in catchment basins.
    Our legal visitors are not allowed to use that water. As 
rare as water is in the desert, we want all of that for our 
wildlife. We know that several of the tanahas, and actually 
even one of the springs was completely drained by illegal 
traffic. Probably most of that was illegal aliens rather than 
drug smugglers, but they both take water that our wildlife 
needs.
    The other thing, particularly the Sonoran pronghorn, pygmy 
owls, some of the shier wildlife, there is a tremendous 
disturbance factor because the traffic in the park is pervasive 
now. Typically we have visitors in the winter, the pronghorn 
are usually west of the park in the winter and move into the 
park in the summer. Traditionally when they would come back to 
the park, they would pretty much have the whole place to 
themselves. We do not get a lot of visitors, a few German 
visitors, in the heat of the summer. But now we have the 
illegal traffic going through, so there is a disturbance to the 
wildlife year-round, which is a new phenomenon and something 
they are not very well adapted to.
    Mr. Souder. Do the traffickers, the illegals move toward 
water resources? Is it stressing your water resources that are 
limited already?
    Mr. DiRosa. Many of the people coming through do not know 
where the water resources are. Those that are providing guide 
service in some cases do know where the water resources are, 
but they do not tell the people that they are guiding because 
they want to maintain full control. That is why we have a 
number of deaths on the refuge.
    I would like to emphasize that the people that are trying 
to negotiate the refuge in that regard are not border citizens, 
they are coming from very far south Mexico, central Mexico, 
South America, etc. They get up this far, they are pretty well 
committed and we are going to put signs to warn people, the 
Border Patrol does not expect those signs to help much, because 
they are committed and once they get into the refuge, if they 
do not find the water, they are in real big trouble. Most of 
our water is very difficult to find unless you know it is 
there.
    Mr. Souder. One of the things we talked about yesterday was 
one of the two trails that both of you mentioned that illegals 
have more access to the resources than the citizens who paid 
for the resources have. But one of the biggest attractions of 
Organ Pipe is occasionally endangered merely because it may not 
be as safe or as open, and one of the goals of the National 
Park Service in this new border protection is to try to secure 
areas where visitors come to Arizona who want to see these 
tremendous resources, is that not correct, and could you 
explain that?
    Mr. Wellman. Yes. The Sweetwater Pass area is a peak area 
of Organ Pipe and has been listed as one of the best hikes in 
Arizona. Right now, because of the tremendous amount of illegal 
traffic through Sweetwater Pass, we do not recommend visitors 
use that area, particularly overnight. Keno Valley, Keno Peak, 
which is almost the center of the park, is one of the most 
spectacular places in the Sonoran Desert, if you decide to 
backpack into Keno Valley and spend the night, there is almost 
a 100 percent probability you will have people walking through 
your campsite that night. We have had visitors go in, set up 
their tents, get up in the middle of the night and leave 
because of the amount of traffic coming through.
    Mr. Souder. It is a frustrating process here, and part of 
the reason to have this discussion is obviously with the deaths 
related to narcotics. People dying at the border areas and 
concern about homeland security are huge issues. But we have 
had past cases inside the National Park Service, I am sure to 
some degree in Fish and Wildlife as well, where the government 
sets aside an area to be protected and for one reason or 
another, either people went and stole the artifacts, degraded, 
whether it be through grazing or other things, resources such 
that the thing we went to preserve gets destroyed. And we are 
seeing this not just here, but our drug habits in the United 
States are wrecking the Amazon Basin. When you fly above, you 
see whole areas where the Amazon River Basin has cocaine 
chemical going down through the river, wildlife is gone, 
cutting down trees so they can put the stuff in. The drug 
problems are becoming an environmental disaster as well as a 
human disaster and it is important for us to understand also 
the need to balance.
    Now let me ask another question about the fish and wildlife 
in the park area. Because this is, obviously as you all know, 
an explosive question whenever you deal with wilderness or 
other environmental protections. If we had a 2-mile waiver for 
homeland security for land and a 5-mile for air surveillance, 
do you believe that would enable us to get better control along 
the borders over time? Say we are looking at this in a 5-year 
or longer term period, and protect the resource more than the 
way we are currently doing it and trying to have people go 
through and not much intercept and potentially pushing more. In 
other words, we do not have a lot of options here, we can put 
up a perimeter, but then everybody is moving through and it is 
a wider zone. We can try to put more pressure in the middle or 
we can really concentrate heavily on the border, or we can just 
say hey, we do not care, we are going to cover the rest of the 
United States but if terrorists come through this border or 
drugs come through this particular area, we are not going to 
patrol it. This is a tough dilemma and a conflict between 
legislation that Congress has to deal with and I wonder how you 
feel about what kind of slots would give us the flexibility, 
and I want to ask the patrol agencies the same question.
    Mr. Wellman. I will go first. In Organ Pipe, we do not have 
the military airspace of the park, so we do not have the 
problem that the basin has. The problem we have is there are no 
aircraft to patrol. And yes, having air surveillance along the 
border would be a great benefit.
    The second question is tougher. Along the international 
border, and probably 2 miles is a pretty good distance, a lot 
of the more violent crimes tend to happen within that first 2 
miles. We need some different rules of engagement, if nothing 
else for the protection of our rangers and other law 
enforcement officers along the border.
    Mr. Souder. How do the Wildlife people feel about it?
    Mr. DiRosa. I think it sounds good in theory. It is 
certainly preferable to stop all the activity at the border and 
if I were going to be asked where would I do it and invest my 
resources, it would certainly be at the border. I think it 
would be problematic, it would be very expensive, we have 56 
miles of very remote border that is very difficult to access. 
It would be easier if we could access it from Mexico on Highway 
2 and obviously that is not practical.
    To give what might be carte blanche for a 2 mile segment 
that is currently wilderness would be difficult for me to 
accept without sitting down and perhaps going through 
negotiations, etc. So it is a difficult question to answer. 
There would be any number of non-governmental organizations 
that would weigh in on this as well, as I am sure you suspect.
    But again, I think the border is the place.
    Mr. Souder. There are variations you could have: You could 
theoretically have a road and a fence or border barrier and 
then a hot pursuit rule up to 2 miles unless there is 
endangerment to go more, you could have some exceptions in that 
area if it was a particular endangered species that would be 
extra, although what you are going to do, wherever you put 
these exceptions, you are going to drive the traffic to that 
exception, which is what happened on the California border. 
They had a nesting area and also one type of snail and they 
just trampled it because if you say you cannot go through here 
and the Border Patrol had orange cones that said you cannot go 
through here, there became a run to that area and in one area 
alone, I saw 900 people massed to go over the fence in 1 night, 
which is standard, around 1,000 a night, heading for the 
endangered species areas. Because when you mark them 
specifically, hey, if we cannot go there, then that is where 
they go. This is a huge dilemma to try to address it without 
actually endangering the zones more.
    But I do not think the American people assume right now in 
the terrorism angle, that the greatest threat are Arab 
nationals, but that is not going to remain the case. As soon as 
they figure out that we stopped that group, just like any other 
type of thing, you go to a different profile and contract with 
other people and it is clear we cannot have borders where 
thousands of people are coming through a night, it is just not 
going to be tolerated. And so we have to figure out what is the 
best way to do it.
    Since you have suggestions and work with it--I am not 
trying to put you on the spot today, but these have to be 
addressed and I would like to hear Border Patrol, DEA, Customs 
responses also. And let me ask one other question. What about 
the 5 miles for air surveillance?
    Mr. DiRosa. Would you repeat that?
    Mr. Souder. Let me have--at this point before I go to the 
next--Dennis, what is your last name?
    Mr. Lindsay. Lindsay.
    Mr. Souder. Yes, could you come forward? One of the things 
that I understood from John on our staff is that there was a 
proposal to have like a tunnel where air patrols could go 
through. The range is blocking this because some of this is 
very rugged. If you cannot get a road to the barrier, 
theoretically the air patrols would be able to help to some 
degree.
    Could you elaborate a little bit on what the discussions 
are on that and how we could do air patrol on the border?
    Mr. Lindsay. Yes. Currently right now, we have had some 
limited success when we have an officer call for assistance, 
bringing a helicopter in. But that does not allow us to do 
routine patrol and use some of the sophisticated technologies 
they have aboard those aircraft to combat the number of 
vehicles that are coming across. That is what we want to do.
    So in essence, what we want to create is a road in the air 
that is 5 miles wide up to 9,000 feet where we can put some of 
this technology to look for aircraft and vehicles that are 
coming across. We currently do not have that. We have been in 
negotiation with the Air Force since September of last year and 
so far, we have been denied that corridor to actually put 
aircraft in there.
    Mr. Souder. Are airplanes actually ever down in that zone, 
and if so, how would they know where the border is?
    Mr. Lindsay. To answer your question, they should not be 
down in that zone, I do not know how they would know where the 
border is.
    One of the things that came out of this discussion with the 
Air Force was they wanted to be sure that we could provide 
aircraft separation. Currently they did not have a clear radar 
picture of the aircraft that were working the bombing ranges. 
Our radar facility that belongs to Customs in Riverside, CA can 
provide them that data, so we can assure them aircraft 
separation which should alleviate that obstacle that they 
brought up to us.
    Mr. Souder. And is it something that would have any impact 
on the resources in the refuge if there were regular----
    Mr. Lindsay. I would think that any time you have some jets 
flying over the refuge, the noise would be a problem, 
especially at a low level.
    Mr. Souder. So a Customs plane would be nothing compared to 
that problem?
    Mr. Lindsay. No. Now one of the problems is that their low 
level deck we think is about 20,000 feet at the border. They 
should not be below 14,000 feet, so we provided an adequate 
buffer from 9,000 to 14,000, we thought.
    Mr. Souder. Any other comments or anybody see any reason 
why that would not be helpful?
    [No response.]
    Mr. Souder. Thank you. Is there anything else you want to 
add with that? I felt it was really important to get that into 
the record, that there are proposals in how we run into and 
counter conflicts sometimes among the agencies in trying to 
address it.
    Mr. Lindsay. I have a map of the corridor we propose that I 
would like to enter into the record.
    Mr. Souder. Yes, thank you very much.
    Mr. Aguilar.
    Mr. Aguilar. Yes, Mr. Chairman, if you are asking if we 
have any more input into what you just brought forward, I would 
like to say that hearing from an enforcement perspective and 
homeland security concern, I appreciate you asking that 
question because my answer to that zone, as you call it, would 
be a resounding yes, it would help tremendously, in order to 
give us something that would allow us to work efficiently out 
there, effectively to create the deterrence posture that we are 
looking for. I firmly believe that if we deploy the corridor in 
as efficient a way as we can, as effective a way as we can, it 
is going to ultimately protect that environmental concern that 
we have throughout those entire areas out there.
    A further clarification--earlier Congressman Shadegg spoke 
about the successes we have had in the sector. I very quickly 
came back and talked about the achievements that we have had, 
because I want to make sure that there is an understanding that 
yes, we have made some dramatic achievements in Douglas/Naco 
and Nogales, but we are still in a gain mode out there, we are 
not finished yet in those areas of operation. One of the things 
that is very impacting in those areas of operation where we are 
still very assertive and very aggressively expanding our 
operation from an enforcement perspective, relates exactly to 
what you are pointing out here, that we are deploying in such a 
way as to work around these parameters, statutes, policies and 
regulations that have an impact on our capability to deploy 
them on the immediate border.
    So again, in citing that, it is important that it would 
be--my answer would be a resounding yes, it would help 
tremendously, fully recognizing that we need to be very careful 
with some of the environmental and cultural treasures that are 
out there. But from an enforcement perspective, yes, it would 
help tremendously.
    Mr. Souder. Any other comments on that?
    [No response.]
    Mr. Shadegg. Thank you, Mr. Chairman. Mr. Winderweedle, you 
have had experience across the whole Arizona border, I think 
you have been stationed in several different locations.
    Mr. Winderweedle. Yes, sir, I have, with the exception of 
Nogales.
    Mr. Shadegg. I am curious as to just your comments about 
the conditions that you face or that you faced when you were in 
the eastern sector versus the conditions that you faced in the 
western sector. I also want to ask a followup question. The 
chairman of the Tohono O'odham Nation testified about the three 
crossings that they have where members of the Nation go back 
and forth across the border. As a Customs official responsible 
for cross border traffic, are you concerned about those three 
crossings and about the fact that they are functional but not 
monitored by your department. So if you could address those two 
questions.
    Mr. Winderweedle. OK, just a point of clarification, 
Congressman, you say what conditions that we face. Conditions 
as they pertain to where?
    Mr. Shadegg. The degree of cross border activity you see, 
either drugs or individuals or goods that you were able to 
seize and maybe even the level of cooperation that you have 
across the border in the two different areas, and just 
contrasting the two different areas.
    Mr. Winderweedle. Well, I think what you are going to find 
with Bureau of Customs and Border Protection, at least as far 
as the ports of entry are concerned, that there is consistency. 
Certainly there is consistency at Lukeville. And certainly the 
levels of cooperation at Lukeville and it has been my 
experience, in Arizona as well that the cooperation inter-
agency is absolutely excellent.
    Mr. Shadegg. What about cross border cooperation?
    Mr. Winderweedle. I have not always worked in a position to 
be involved in cross border cooperation, I can say that cross 
border cooperation at the port of entry at Lukeville at this 
particular point in time is quite good. My counterpart and I 
probably speak every week or 10 days on some topic of mutual 
concern. And that relationship seems to be building and 
solidifying.
    Mr. Shadegg. And the other part of the question, what about 
the three crossings on the Tohono O'odham Nation. Is there 
commercial traffic going across there?
    Mr. Winderweedle. No, sir, there has been no commercial 
traffic, any legitimate commercial traffic. There may have been 
attempts, but I think that Mr. Aguilar has had some of his 
staff involved in that and those attempts have been directed to 
the port of entry.
    I know there are issues with the Tohono O'odham Nation that 
the legalities of all this are in front of the Congress right 
now in legislation that was proposed by Congressman Grijalva.
    Do we have an immediate binding concern on that? Since it 
is outside of the port of entry, it would be appropriate for me 
to defer to Mr. Minas on that topic.
    Mr. Souder. I would like to ask a couple more of this 
panel, and I appreciate your tolerance and those who are 
planning things after this, but this is why we are here.
    Mr. Woolley, a couple of things. You mentioned that we are 
going to be doing a hearing in El Paso next month and working 
some on the Texas border, we tend to have in the U.S. 
Government, things pretty organized by usually Arizona area, 
here is the New Mexico area, here is the Texas area, here is 
the California area. In the cartels and those who are trying to 
smuggle the large volume of narcotics over, do they tend to 
work--I know they are not set up on our State system, but does 
the eastern side of Arizona tend to flow more toward New Mexico 
and El Paso; the Yuma side more toward California, or in fact 
is there a corridor that comes up through Arizona? What are the 
networks of how the cartels are distributed?
    Mr. Woolley. As you point out, they are very well organized 
and there is a focus in the southern Texas and western Texas 
area, the Juarez cartel has that pretty well taken care of and 
their narcotics flow into and up to Chicago and the midwest. We 
see some of the San Diego based Tijuana traffickers that have 
established a very good route there through Tijuana, coming 
further east. And we have very well established cartel members 
from central Mexico coming up through Nogales.
    But like the panel pointed out, if you exert influence in 
one area, it is like squeezing a balloon and if you squeeze in 
one area, it has a tendency to pop out elsewhere, so law 
enforcement initiatives both south of the border and here have 
a tendency to influence the trafficking patterns. Competition 
being as it is, there are a number of transportation cells and 
smuggling cells here in southern Arizona that will sell their 
services to the highest bidder, so competition will be 
something that will influence what organization gets used.
    Mr. Souder. Do they have earmarked zones where they--in 
other words, how flexible are they in fact to move across 
borders, if you are a cartel? And can you go into another guy's 
zone, can your transportation guy go into another guy's zone? 
Or in fact is it kind of marked and does our structure reflect 
their structure or does our structure affect our political 
structure?
    Mr. Woolley. Well, you would not go into somebody else's 
established neighborhood without some concern by that 
particular group. But if there is some influence, say one of 
the members get assassinated or the families break down or 
whatever, there would be probably incentives to try to get in 
and take over that very lucrative trafficking pattern.
    Mr. Souder. What are the predominant patterns you see in 
trafficking changes, is a high percentage of what is 
intercepted in your sector, taking Phoenix and Arizona as a 
whole, is it moving more and more toward large quantities or is 
it breaking up into smaller where they consolidate into 
truckloads farther up into the State?
    Mr. Woolley. Both of those things, sir. As you pointed out 
earlier, the estimate is between 60 and 65 percent of the drugs 
coming into the United States is crossing through the southwest 
border. I would say Arizona has certainly their predominant 
share of that, 25 to 30 percent. They will shotgun the border 
with various vehicles, the cottage industry with secret 
compartments in cars and trucks can contain significant amounts 
of narcotics--cocaine, methamphetamine and marijuana. Trucking 
business as it is and the border being open to trade, that is 
certainly a concern of ours. So they shotgun, they use small 
loads, they use larger loads. It comes in across the border, is 
staged in southern Arizona, Tucson, gets up to Phoenix and then 
it is distributed to the various cities in the United States.
    Mr. Souder. I was flabbergasted yesterday--and you can 
explain what in the world that area is across the border at 
Lukeville, where you have all those trucks and cars on the 
Mexican side that are impounded, most of which are relatively 
new, which would suggest there is--if they are in fact saying 
those were illegal, was it licensing, was it drugs, was it--
what in the world is going on there? I mean why are they not 
being sold in auto salvage--I mean, it goes for an extensive 
area and there are tons of trucks in there.
    Mr. Winderweedle. It is my understanding that those 
vehicles have been seized and confiscated by Mexican law 
enforcement agencies. As far as what their ultimate and final 
disposition is, I do not know, I have no knowledge of how they 
get rid of them or if they ever get rid of them, but those are 
all from Mexican law enforcement agency seizures and 
confiscations, apparently for violations of laws that were 
committed in the Republic of Mexico.
    Mr. Souder. There was one fire there where people had been 
sleeping and it almost looked like it could be a low-rent motel 
zone. Do you see that much along there?
    Mr. Winderweedle. We do not have a good view of that 
through the Port, but that area is transitted literally over, 
under, around and through. Our counterparts on the other side 
have made some efforts as far as securing that area. They 
recognize and understand their responsibility toward that 
property that is contained in there, but it is a difficult 
task.
    Mr. Souder. Do you have very many legitimate use trucks 
coming through, is it a major trucking port? Do you see an 
increase when they put pressure on at Nogales or Yuma?
    Mr. Winderweedle. As it stands currently, we are very 
limited use as far as commercial importation and exportation 
activity. Our predominant use is with the north and south-bound 
legitimate compliant travelers--tourist, trade, people 
transitting through the area on their way south and north.
    Mr. Souder. Mr. Woolley, do you see much coming in by air, 
small planes landing, clearing the whole border area?
    Mr. Woolley. Yes, sir, we have intelligence information 
that in fact is happening. Again, my colleagues would probably 
have better information on that. Up in Tucson, we do not see 
that too much.
    Mr. Souder. Do you sense that if we put more pressure on 
the border as far as other things, that if you were taking 
narcotics or weapons of mass destruction, you might go that 
route as opposed to people?
    Mr. Woolley. Absolutely.
    Mr. Souder. Any other comments that anybody would like to 
put into the record before we move to the third panel?
    Mr. Shadegg. Mr. Woolley, I am a little bit surprised by 
your last answer on cross border flights. When I was in the 
Arizona Attorney General's Office, we were aware there was a 
great deal of cross border flying and random dirt airstrips all 
over the State. I recall being aware of a number of incidents 
involving airstrips in Mojave County. Do you know--that was 
obviously a number of years ago, say 10-13 years ago. Is it 
your belief that there is ongoing drug trafficking across the 
border in small airplanes and landing strips further north in 
Arizona?
    Mr. Woolley. I do not think particularly, sir, that is 
happening now with the increased diligence that we have since 
September 11th, that everybody is very attentive to that and 
from your experience, I am sure you know about the spotters 
that used to be out there and we have seen a decrease in that, 
although we do know that there are places down at the border 
area, there are still some strips that are at least up in the 
other areas in Arizona, but I do not have any information that 
those are being used for smuggling.
    Mr. Shadegg. No information that planes are coming across 
at low altitudes, we have essentially deterred that activity?
    Mr. Woolley. I have no information along those lines, but I 
would be happy to check and get back to you.
    Mr. Souder. I am confused. You do not have it farther up in 
Arizona, but you do along the border?
    Mr. Woolley. Yes.
    Mr. Souder. Thank you very much.
    Will the members of the third panel please come forward--
Ms. Fern Salcido, Mr. Augustine Toro, Colonel Ben Anderson, Ms. 
Jennifer Allen and Reverend Robin Hoover. And will you remain 
standing so I can administer the oath?
    [Witnesses sworn.]
    Mr. Souder. Let the record show that each of the witnesses 
responded in the affirmative.
    I would appreciate it if those who have conversations would 
take them outside and show respect for the witnesses who are 
here.
    Ms. Salcido, we will start with you.

 STATEMENTS OF FERN SALCIDO, TOHONO O'ODHAM NATION LEGISLATIVE 
 COUNCIL MEMBER; AUGUSTINE TORO, CHAIRMAN, CHUKUT KUK BOUNDARY 
 COMMITTEE, TOHONO O'ODHAM NATION; COLONEL BEN ANDERSON, U.S. 
  ARMY (RETIRED); JENNIFER ALLEN, BORDER ACTION NETWORK; AND 
 REVEREND ROBIN HOOVER, PRESIDENT, HUMANE BORDERS, INCONSISTENT

    Ms. Salcido. Good afternoon, Members of Congress and 
welcome to Tohono O'odham Nation. My name is Fern Salcido.
    I am very honored to speak before your subcommittee today. 
The issue of cross-border narcotics smuggling is one that I am 
very concerned about. I am a member of the Tohono O'odham 
Legislative Council elected by Gu Vo District. I live in the 
community of Meneger's Dam about a quarter of a mile from the 
border and just a few miles east of the Port of Entry at 
Lukeville. I have lived in Meneger's Dam all of my life and I 
am a mother and a grandmother and I care very deeply about my 
family, my community and my Nation.
    Drug smugglers travel through our village day and night. 
They are very open about their business; they recruit our 
children, 8 and 9 year olds, to watch for approaching law 
enforcement agents. They pay our children in drugs. It is 
common that when a law enforcement officer comes across these 
smugglers, they chase them at high rates of speed through our 
villages and communities. It is truly a miracle that none of 
our children or elders have been run over by either the 
smugglers or the law enforcement agents. Many years ago, we 
asked the Bureau of Indian Affairs to install speed bumps in 
our villages and communities. We were told there were not 
enough funds for speed bumps.
    I want to share with you two incidents that happened to me 
and perhaps you will better understand my concerns.
    Late in 1999, at about 7 p.m., well after dark, someone 
knocked at my door. I opened the door and found a man dressed 
in a Mexican military uniform carrying a machine gun. A Humvee 
vehicle was parked in my front yard and four other uniformed 
and heavily armed men stood next to the vehicle. The man at the 
door asked for a man I did not know. It was obvious to me that 
the men at the door were looking for a lost drug load. My 
children were in the house and I was very scared for our 
safety.
    Last summer, Federal agents and the Tohono O'odham Police 
Department surrounded my neighbor's house about 200 yards from 
my house. As the law enforcement officers moved in on the 
house, a drug runner tried to escape driving out of the 
property at a high rate of speed. The man was shot by Custom 
agents and crashed his vehicle into my shed. Several shots were 
fired in the direction of my home. Again, I was very fearful 
for the safety of my children, my grandchildren, myself and my 
community. Unfortunately, incidents like these two occur 
regularly in our community and they put us all at grave risk.
    The Gu Vo District is bounded on the west by the Organ Pipe 
Cactus National Monument. I am deeply troubled by the plan to 
put a vehicle barrier fence along the Organ Pipe border. This 
will most surely result in even more drug smuggling traffic 
into my community and in the Gu Vo District. If any of the 
Organ Pipe border area is fenced, then my community is of the 
opinion that the vehicle barrier fence should continue east the 
length of Gu Vo District. I understand our neighboring 
District, Chukut Kuk, is current discussing their position on 
the vehicle barrier fence. The Gu Vo District is committed to 
working in partnership with our neighbors and the United States 
to deal with cross-border drug smuggling, but we need help and 
we need it now.
    I support Chairman Manuel's proposal that the United States 
build and maintain a road immediately adjacent to the border 
and that the Federal law enforcement officials be stationed on 
the border. Our elders and our children and our families and 
our communities need protection.
    Thank you and I will be pleased to answer any questions you 
may have.
    Mr. Souder. Thank you for your willingness to come forward 
and testify today. Mr. Toro.
    [The prepared statement of Ms. Salcido follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.042
    
    [GRAPHIC] [TIFF OMITTED] T7703.043
    
    [GRAPHIC] [TIFF OMITTED] T7703.044
    
    Mr. Toro. Good morning, Members of Congress, welcome to the 
Tohono O'odham Nation.
    I am very honored to speak before your subcommittee today. 
I live and work on our family ranch which is located 12 miles 
north of the international boundary in the Chukut Kuk District 
on the Tohono O'odham Nation. My family has lived on this land 
since the late 1800's.
    I serve my community as a representative on the Chukut Kuk 
District Council and serve as the chairman of the Boundary 
Committee for the District. The Boundary Committee is comprised 
of five representatives from the Council who work closely with 
Border Patrol and other law enforcement agencies to address 
many issues; for example, to make sure that the Chukut Kuk 
District fencing remains secure along the international 
boundary. This is important to ensure that our cattle and 
horses remain in our District boundaries. And also to protect 
our environment and our sacred sites from unwanted intrusions. 
Fifty miles of the Chukut Kuk District is contiguous to the 
international boundary.
    Not so long ago, many ranchers from both sides of the 
border worked together to resolve our common problems. Today, 
our fences are regularly cut by drug smugglers and our cattle 
strays south of the border. Our sacred environment is 
desecrated by vehicles driving over our pristine desert.
    Our family ranch is located in a very remote area at least 
1 hour from the nearest law enforcement officials. Sometimes 
people come to our ranch asking for food and water. We see they 
are carrying large bundles and know that they are transporting 
drugs.
    I am very concerned about the safety of my family and other 
community members that reside in the Chukut Kuk District. 
Recently, the Chukut Kuk District and Tohono O'odham Nation 
entered into an agreement with the Border Patrol to build a 
joint use facility in our District close to the border. I 
believe this unique collaboration to be the first of its kind 
anywhere in the United States.
    We must act together with our neighbors and the United 
States to effectively address the issues of border crossing for 
importation of drugs.
    Thank you again and I am pleased to answer any questions 
you might have.
    Mr. Souder. Thank you for coming forth with your testimony 
as well.
    Now, Colonel Anderson.
    [The prepared statement of Mr. Toro follows:]
    [GRAPHIC] [TIFF OMITTED] T7703.045
    
    Colonel Anderson. I am Ben Anderson, a retired U.S. Army 
Colonel. I am a resident of Cochise County and for almost 30 
years as a soldier and officer in the Army. I spent a 
significant portion of my career planning and executing the 
defense of other people's borders. We are the world's experts 
at border security.
    So far today, it would appear that we have heard a litany 
of all the problems we have and why things are not going right, 
and maybe we are going in the wrong direction and that given 
the funding that might be considered, it will take far too long 
to get the problem solved. I do not see this as a means to a 
solution.
    I wish to make three points immediately.
    First, your letter that you issued to us stating that 
``Substantial progress on these issues has been made since the 
attacks of September 11.''
    We in Cochise County see no basis for such a positive 
statement. Cochise County does not even have any Border Patrol 
checkpoints in operation. Illegal aliens of whatever ilk who 
get past the initial porous line of sparse Border Patrol 
presence are free to drive direct to anywhere in the United 
States. This unique tactic surely does cut down on the number 
of apprehensions or arrests and improves statistical numbers 
for bureaucratic reporting, but surely does not solve the 
problem.
    Second, it is difficult to separate people smuggling from 
drug smuggling to terrorist smuggling. All are intertwined and 
mutually supportive.
    Third, there is far too little attention being paid to the 
danger of exotic human and animal diseases resulting from the 
ingress of large masses of medically unscreened illegal 
aliens--illegal aliens--from the Third World's under-developed 
countries.
    The situation in Cochise County is out of control. 
Briefings by Border Patrol authorities do not reflect reality. 
The measure of success is now how many illegal aliens are 
caught, but how many illegal aliens successfully get through. 
The arrest/apprehension rate has decreased from 1 in 5 to 1 in 
10, it could be zero out of 200. There is no known measurement 
standard that calls 10 percent or less a passing grade.
    There continue to be a series of gambits to assuage the 
concerns of the border citizens. The standard ploy is to ask 
for more funding to offset the costs of medical care or prison 
incarceration costs or whatever. It is not the money that is 
needed, it is the military. We do not want other taxpayers' 
money, we want the problem stopped. Attempts to regularize--
which is amnesty--or institute some guest worker programs, so 
as to appease those who profit from cheap slave labor, are mere 
political gambits.
    Recently we had two Border Patrol or official government 
agents murdered, one south of Naco and Kris Eggle. I mean if 
Border Patrol agents or National Park agents can be murdered, 
what message does that send to drug traffickers, smugglers, the 
Mexican Government and what message does it send to the 
ranchers in the area--they are terrified. What measure of 
safety does a lone rancher or property owner feel?
    The general mantra at all levels is the lack of funding. 
Caught in the middle are the ranchers, property owners and the 
families who live along the border and who must escort their 
children to the local bus stop to catch a school bus because 
illegal aliens are hiding in the undergrowth awaiting their 
rides to the north. Families find drug stashes on their 
property awaiting pickup by drug traffickers. They fear being 
charged as drug traffickers themselves.
    It is wrong that American high school boys and girls must 
go about their ranch chores armed at all times. Children have 
been threatened and attacked by illegals over 30 miles from the 
border. Others have been co-opted into being drivers and 
suppliers for coyotes and drug traffickers. The lure of 
enormous amounts of cash for little effort is overwhelming. 
They become high school dropouts and may never be recovered to 
a proper way of life.
    The environmental and economic costs to the ranching 
communities have been overwhelming. Ranching families have been 
forced into bankruptcy, others are on the verge of bankruptcy. 
Land values have plummeted.
    As a result, citizen groups have been formed to take the 
matter into their own hands. Three groups are already formed 
and operating, a fourth out-of-state group, is forming now. Gun 
dealers in Cochise County are unable to keep up with the surge 
in demand for both guns and ammunition. Citizens are arming 
themselves. They feel that bloodshed is on the horizon. All 
fear it will take a major bloodletting to get relief or to get 
the ball rolling.
    Last week, Fort Huachuca apprehended 90 illegal aliens on 
the military reservation, 180 previously. The full total is 
unknown. Fort Huachuca is the U.S. Army's Intelligence Center, 
is a closed military installation.
    No amount of funding or manpower increases or realignment 
can fix the Border Patrol in a timely manner. It cannot be 
grown to the task in time.
    However, our military is structured, manned, funded, 
trained and capable of quickly accomplishing the mission. It 
has decades of experience in border security missions all over 
the world. The American military is the world's expert at 
protecting other nation's borders. Safeguarding ours is a snap 
given interior lines of communication.
    There is no need for large military units or heavy 
equipment or tracked vehicles such as tanks, artillery or 
armored personnel carriers; or heavy weapons or any equipment 
that might be ecologically destructive. Light forces with rapid 
helicopter mobility can cover large remote areas with minimal 
assets while freeing up the limited Border Patrol assets to 
concentrate on congested urban areas or where their particular 
expertise is needed.
    In southeast Arizona, where the main concentration of 
illegal alien and drug traffic exists--upwards of 1.5 million 
illegal aliens per year successfully cross into Cochise 
County--the stationing structure already exists. Fort Huachuca 
provides a perfect location for border operations of any needed 
military units.
    Military engineer units from the active and reserve can 
rapidly emplace requisite fencing. Units can be rotated to 
maintain the operational temp of DOD. The task is simple and 
requires very limited training. Standard rules of engagement 
suffice.
    Concurrently, INS and Border Patrol forces can take on 
their mandated task of searching out illegal aliens and drug 
traffickers within the country and repatriating them to their 
country of origin or prosecuting them.
    I strongly urge consideration of a military option in 
Arizona, if not across the entirety of the U.S./Mexico 
international border.
    Attempts to deny----
    Mr. Souder. Sir, you are over your time. Can you submit the 
rest for the record?
    Colonel Anderson. I surely can, a much larger version was 
already submitted.
    Mr. Souder. OK, can you summarize then?
    Colonel Anderson. I would state that the attempt to use the 
posse comitatus argument as we are using why not to, is invalid 
because it is a matter of national security, not law 
enforcement.
    I thank you.
    Mr. Souder. Thank you very much.
    Mr. Shadegg. Mr. Chairman, point of order.
    Mr. Souder. Yes?
    Mr. Shadegg. The gentleman's testimony was I think very 
helpful and useful for this hearing. He indicated it had 
already been submitted. We do not have a copy. Can you be 
sure--I just checked with the committee staff and they say they 
do not have a copy.
    Colonel Anderson. There is the electronically submitted 
copy and I have about 50 copies here. I have 10 more to give to 
you.
    Mr. Shadegg. We want to make sure we have one in the 
record.
    Colonel Anderson. I will do that.
    Mr. Shadegg. Thank you.
    Mr. Souder. The staff came to Arizona sooner to do the 
backup, so anything that came in, we would not have seen it 
yet.
    Ms. Allen.
    [The prepared statement of Colonel Anderson follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.046
    
    [GRAPHIC] [TIFF OMITTED] T7703.047
    
    [GRAPHIC] [TIFF OMITTED] T7703.048
    
    [GRAPHIC] [TIFF OMITTED] T7703.049
    
    [GRAPHIC] [TIFF OMITTED] T7703.050
    
    [GRAPHIC] [TIFF OMITTED] T7703.051
    
    [GRAPHIC] [TIFF OMITTED] T7703.052
    
    [GRAPHIC] [TIFF OMITTED] T7703.053
    
    [GRAPHIC] [TIFF OMITTED] T7703.054
    
    Ms. Allen. Thank you for the opportunity to speak with you 
all today. It is a great honor. My name is Jennifer Allen, I am 
the director of the Border Action Network. We were founded in 
1999 and we are a grassroots organization that works with 
Arizona/Mexico border communities to protect our human rights, 
civil rights and the Sonoran Desert.
    On a Federal level, there has been no distinction between 
drug enforcement, immigration enforcement and border 
enforcement. Drug war funds and resources have blended almost 
seamlessly into border enforcement and immigration efforts. As 
a result, immigrants looking to improve their lives or unite 
with family, U.S. citizens and legal residents that live on the 
border are subjected to what has become an essentially lawless 
and de-Constitutionalized zone where our rights and civil 
liberties have been undermined. Adding insult to injury, these 
same enforcement strategies are clearly failing.
    Last summer's 130-plus deaths of men, women and children 
who were looking for work, joining their families or coming to 
better their lives in the United States is the clearest and 
most devastating consequence of current U.S. border policies 
and strategies. The militarization of the border has 
essentially turned this region into a war zone with solid steel 
walls, stadium-style lights, 30-foot surveillance towers, 
underground surveillance, armed military troops, military 
equipment and tactics, and inter-agency task forces that are 
not trained to operate on domestic soil.
    History should have taught us that building walls to divide 
countries and people has consistently failed and subsequently 
been torn down. Nevertheless, we have proceeded with a 
militarization strategy that has now backfired. The goal of 
deterrence has failed. In fact, this approach has served to 
further sophisticate and professionalize the same smuggling 
networks. For this reason alone, the government's approach to 
border enforcement should be drastically changed.
    A lesser discussed issue in the region, but of equal 
importance, are the civil rights and human rights consequences 
of current border policies. From our work and discussions with 
immigrants and border communities, we want to draw your 
attention to: The impact of Border Patrol buildup in border 
communities; the lack of oversight or investigation into the 
Border Patrol; the growing anti-immigrant movement in Arizona; 
and the increasing criminalization of immigrants and its 
devastating impacts on their lives and families.
    Border enforcement efforts along the southwest border 
account for over 70 percent of the INS' budget and over 90 
percent of their staffing power. According to the General 
Accounting Office, the Border Patrol has had enormous employee 
turnover rates. The result is over 1,200 agents in the Tucson 
sector alone who show great disregard for the rights and 
dignity of the people that live on the border--citizens, legal 
residents and undocumented immigrants alike.
    Examples include: In May 1999, Arizona Border Patrol agents 
Matthew Hemmer separated a 21 year old Salvadoran woman from 
her friend and drove her to a remote location where he tied her 
hands together, forced her to kneel on the ground and raped 
her. Agent Hemmer was arrested in August 2000, charged with 
kidnapping, sexual assault and sexual abuse. He pled guilty to 
merely aggravated assault and for transporting the woman 
without her consent. If he completes 36 months probation, his 
record will only show a misdemeanor.
    A mother that lives in Pirtleville, a small community 
outside Douglas, tells of Border Patrol agents driving 80 miles 
an hour over narrow dirt neighborhood streets chasing suspected 
immigrants. The dust plume from the speeding vehicles 
aggravates her children's asthma and the parents fear to let 
their children play outside.
    Another woman from Sasabe described how a Border Patrol 
agent interrogated her young niece and drove her to tears as 
she was on her bicycle on her way to the grocery store.
    As of February 2002, Agent Matthew Sheffler, the prime 
suspect in the murder of his girlfriend and fellow agent in 
2000, continued to work at a Border Patrol checkpoint near 
Douglas.
    Other stories include incidents similar to this of agents 
shooting the people and in some cases killing people, running 
people over with their vehicles and sexually assaulting women. 
Our sources are from people that live in the communities as 
well as investigative reports and government reports.
    Adding insult to injury, most people in border communities 
report that they do not know how to file a complaint against an 
agent. And those that do, express doubt that anything would 
result other than retaliation against them. The Office of the 
Inspector General is responsible for investigating criminal 
complaints; however, the office's seven investigators monitor 
more than 1,200 Border Patrol agents in the Tucson sector 
alone, plus thousands of other INS, U.S. Marshals and Bureau of 
Prison employees in Arizona and Nevada.
    Clearly the system that exists for monitoring the Border 
Patrol and ensuring fair and expeditious review of cases and 
complaints is not working. As the budgets of what was the INS 
and the Department of Defense, who is playing a greater 
physical role on the border, budgets that reach nearly $20 
billion, it is critical that the impacts of these activities on 
communities be addressed.
    Another key area of concern is the growth of anti-
immigrant, white supremacist groups along the border. These 
groups, like human rights and community groups also see the 
failure of U.S. border enforcement efforts. They, however, are 
exacerbating the violence and fear that U.S. strategies have 
created. In December 2002 we released a report entitled Hat or 
Heroism: Vigilantism on the Arizona-Mexico Border, that we have 
submitted as evidence, and we would appreciate if you could 
take time to look at it.
    These are neither individual acts nor isolated events, the 
activities of the border vigilante groups; they are organized, 
unlawful and are receiving significant media attention. 
Nonetheless, they continue. What is equally disturbing is that 
local law enforcement and the Border Patrol tout their support 
for these groups even in the face of national INS concern about 
these groups and their activities.
    The State and Federal Government's inaction and failure to 
stop these groups and rights violations is a tacit approval, a 
green-light for violent, anti-immigrant groups to continue 
harassing, kidnapping and holding immigrants at gun point.
    These are just snapshots of the many, many lives who have 
been lost, destroyed and threatened by the current U.S. border 
policies and enforcement strategies. The Federal Government is 
responsible for protecting the rights of all people that call 
this country home. Our border policies are in fact undermining 
the principles and values that we espouse.
    I thank the subcommittee for taking the time to hear from 
us today and hope that you all will take up the responsibility 
of carrying our voices and stories to Washington and converting 
them into safe and just policies that neither waste our money 
nor our lives.
    Thank you.
    Mr. Souder. Thank you and we will put your full statement 
in the record; thank you for abbreviating.
    Ms. Allen. Thank you.
    Mr. Souder. Reverend Hoover.
    [Note.--The Border Action Network report entitled, ``Hate 
or Heroism, Vigilantes on the Arizona-Mexico Border, December 
2002,'' may be found in subcommittee files.]
    [The prepared statement of Ms. Allen follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.055
    
    [GRAPHIC] [TIFF OMITTED] T7703.056
    
    [GRAPHIC] [TIFF OMITTED] T7703.057
    
    [GRAPHIC] [TIFF OMITTED] T7703.058
    
    [GRAPHIC] [TIFF OMITTED] T7703.059
    
    Rev. Hoover. Congressman Souder and Congressman Shadegg, 
thank you for the opportunity to testify. My verbal remarks are 
slightly different from my written testimony at the request of 
the committee and I will provide copies of my spoken words.
    I began working in the area of migration policy during the 
Salvadoran exodus to the United States in the 1980's and I hold 
a 1998 Ph.D. narrowly focused in political science of the area 
of migration.
    To begin, Humane Borders, Inc. and its member organizations 
wish to acknowledge that we support the underlying premise of 
law enforcement of all the agencies all along the border. That 
is, that the government has the absolute sovereign right to 
determine who crosses the U.S./Mexico border, when, where, 
what, with what and under what circumstances. The member 
organizations of Humane Borders support the presence of law 
enforcement efforts to reduce the scourge of cross-border 
smuggling. I and volunteers on two occasions have been in the 
desert during operations when smugglers were apprehended with 
fully automatic weapons and we were asked to leave the area.
    The violence related to this traffic is escalating and it 
has already claimed far too many lives of persons on both sides 
of the U.S./Mexico border. Additionally, drug smuggling 
contributes to environmental degradation in many ways each and 
every day, particularly with vehicular traffic, as you have 
heard.
    While law enforcement officers and various public 
administrators, particularly the land managers, etc., focus 
primarily on questions of efficiency and effectiveness of 
policy, we are a faith-based organization, particularly 
concerned with equitable questions. We do not find though that 
these differences place us at odds with those that are trying 
to implement current policies.
    However, all that said, U.S. border policies are 
collectively very fatally flawed. They result in totally 
unacceptable annual death tolls. Social scientists, both in the 
academy and in public service confirm that the buildup of 
personnel and technologies has continued to intentionally move 
the migration and consequently the drug smuggling into more and 
more inhospitable, precious pristine areas of the desert, 
resulting in more deaths. In southern Arizona alone, the death 
toll in the desert is now 25 times as high as it was just 6 
years ago.
    In our judgment, two things need to be addressed. Of 
course, in the long term, the inexorable flow of humanity from 
south to north needs to be moved back to the ports of entry 
where migrants are documented, inspected and cleared for 
security and otherwise processed in order to contribute to the 
security of citizens of the United States.
    Moving the migration back to the ports of entry would 
radically change the ratio of law enforcement officers to the 
number of persons seeking to enter the United States without 
inspection and change their assumptions about those that they 
encounter in the desert. BCBP personnel between the ports would 
be more justified in assuming that they were encountering a 
felon rather than a person merely in administrative violation. 
In our judgment, the long-term political solution to the 
migration is actually more relevant today than prior to 
September 11th.
    In the short term, law enforcement in southern Arizona 
should continue to work with various land managers and with 
non-governmental organizations like Humane Borders, Inc. to 
reduce the number of deaths in the desert. Fortunately, there 
are a number of low-cost, low-environmental impact 
technologies, including those proposed currently by law 
enforcement yet to be employed.
    Simply count the staff time and count the dollars. Time and 
money spent on search and rescue operations, provision of 
medical transportation and services, supervision, media 
relations, community relations, other activities could be 
significantly reduced if death were substantially taken out of 
the immigration equation. Failure to do so will continue to 
demoralize BCBP personnel and further increase concern within a 
significant segment of the resident population.
    Additionally in the short term, absent a comprehensive 
change in border policies and absent a border law enforcement 
buildup of several times as many personnel, border crossing 
enforcement through deterrence and apprehensions can only be 
improved incrementally, as we have heard. In fact, we may reach 
the time when dollars spent on this side of the line would be 
more effectively spent on the other side.
    In June 2001, more than 20 people gathered, representing 
Humane Borders and various Federal, State, county and tribal 
authorities on two occasions in Ajo, AZ. A consensus was 
articulated that land managers should not act unilaterally 
through deterrence and other measures, because to do so would 
only push cross-border traffic onto adjacent property, 
increasing environmental degradation there and potentially 
contributing to the further loss of life.
    In conclusion, we acknowledge the depth and the breadth of 
this border problem. Absent a complete overhaul of the U.S. 
border policies, incremental changes in enforcement practices 
will only shift the migration around, contribute to more deaths 
and further degrade the environment.
    Thank you for the opportunity to share this analysis and I 
would welcome your questions.
    [The prepared statement of Rev. Hoover follows:]

    [GRAPHIC] [TIFF OMITTED] T7703.060
    
    [GRAPHIC] [TIFF OMITTED] T7703.061
    
    [GRAPHIC] [TIFF OMITTED] T7703.062
    
    Mr. Souder. Thank you all for your testimony. As you can 
see all day we have heard from a wide range of opinions.
    Let me start with Mr. Hoover. Do you favor any limitations 
on the number of immigrants?
    Rev. Hoover. Limitations on?
    Mr. Souder. The number of immigrants. In other words, you 
define different ways--guest workers, illegal aliens and so on. 
Do you favor any limitations?
    Rev. Hoover. That is our right to choose to do that and I 
think that we would be better served to exempt Mexico from the 
worldwide quota of visas, precisely because empirically they 
are already here, we already have the cross-border traffic. Our 
current enforcement practice is attracting the huge number of 
people here.
    Mr. Souder. A large percentage of that people coming 
through the south border are in fact not Mexican, as we have 
heard, they are Salvadoran, Honduran and Central American. 
Would you limit them?
    Rev. Hoover. Yes, I would. About 98 percent are Mexican 
national right now crossing.
    Mr. Souder. That is disputed, but I agree it is the 
overwhelming majority. Of course, the policy that we have seen 
in other places like Canada on the north, is that system would 
depend on Mexico having it. Even if I granted that premise, 
that you were not going to limit Mexico, that depends on their 
citizenship criteria because all that would mean is you would 
have to move into Mexico if it was 6 months 1 year in 5 years. 
Libya is doing this and the Caribbean Islands, establishing 
European citizenship when their European islanders are coming 
in under European common market rules for immigration, and that 
is one of our big focuses on terrorism right now.
    How would you not have absolute chaos on the south border 
if there were not limitations and that was seen as a carte 
blanche once you made it into Mexico?
    Rev. Hoover. We have absolute chaos on the border. And if 
you were to inspect folks and check them out and so forth, give 
them documentation, make an opportunity to come here legally, 
you would have more port of entry entrants that you would know 
was here.
    Mr. Souder. I am not necessarily disagreeing with the guest 
worker or changes in numbers, what I am trying to establish is 
that we will never have, nor will we ever agree to completely 
open borders.
    Rev. Hoover. Sir, a border exists, our question before us, 
even when we named our organization is we have a border, the 
question is how do we make it humane.
    Mr. Souder. Would you support then if someone had a guest 
worker privilege and they overstayed it, immediate deportation, 
tough penalties if they came back?
    Rev. Hoover. I fully believe that someone needs to probably 
have a little grace period, but yes, you go home. A tremendous 
number of the folks who are here are folks who have overstayed 
and from other places other than Mexico.
    Mr. Souder. My point being is that would that person then 
not go through the port of entry the next time?
    Rev. Hoover. It all depends. There are so many variables in 
that scenario.
    Mr. Souder. I believe with modifications of immigration 
strategy, we can have some percentage, higher percentage moving 
through the port of entry, but I do not think it is realistic 
to think that only drug felons or others would be moving in the 
illegal zones. We are always going to have to have a Border 
Patrol presence that is fairly substantial.
    Rev. Hoover. Yes, sir, I just think this changes the ratio 
and changes the assumptions of what is happening in the desert, 
if we could get a lot of the migration back to the ports of 
entry.
    Mr. Souder. One last question. When you put water or other 
outposts in land, do you check with the landowner whether 
that--do you just do this unilaterally?
    Rev. Hoover. We operate under Federal permits in Cabeza 
Prieta National Wildlife Refuge, Organ Pipe Cactus National 
Monument, Bureau of Land Management, U.S. Fish and Wildlife 
operated Buenos Aires National Wildlife Refuge, we do so under 
permits. We provide insurance for these activities, it is at no 
cost to the organization. In fact, the land managers are 
interested in our presence there because in their absence to 
control the migration, they can at least manage some of the 
effects on their property. So we are here at the invitation.
    Mr. Souder. So you are permitted.
    Rev. Hoover. Yes, sir.
    Mr. Souder. And similarly on Tohono O'odham?
    Rev. Hoover. We have no water stations on this Nation's 
land.
    Mr. Souder. What about on anybody's private land?
    Rev. Hoover. [Shakes head.]
    Mr. Souder. So the only places you do this are where you 
are permitted?
    Rev. Hoover. We are on Federal property, we are on one 
county's property and we are on about 11 private locations. 
They are all very strategic and remote--strategically located, 
very remote situations.
    Mr. Souder. In the Border Action Network, Ms. Allen, do you 
support any limitations on immigration?
    Ms. Allen. We support immigration policies that incorporate 
root causes of immigration, which then reflect the economic 
needs within this country and also reflect the economic push 
factors within Mexico. So in that sense--that is what we 
believe should be the basis of immigration flow. And right now, 
they are devoid of understanding the economic push.
    Mr. Souder. So you do not believe immigration standards 
should be based on U.S. needs or requirements, you believe they 
ought to be international?
    Ms. Allen. Within the U.S. economy, we believe that 
immigration policy should be much more formed around the 
recognition of the dependency on immigration, of immigrant 
labor and that there is also----
    Mr. Souder. Well, I understand that, my question was more 
precise. Let us say if our unemployment rate is low and there 
is a big push back for coming to the United States, that is one 
thing, but what if our unemployment has stayed stable for 5 
years and Mexico's economy has a problem. Are you saying we 
should adjust our immigration strategy based on their economy 
too, because I heard you say it should be on the whole push and 
pull.
    Ms. Allen. I think part of our concern is that we close off 
the border or say that we do not want X number of Mexicans or 
only--set some limits, but those limits are outside, they do 
not fit within the context of the impacts of globalization, 
that part of the push of other immigrants from Mexico and 
Central America is a direct result of our policies. So we are 
pushing people out of their lands, but then sealing our border 
and not providing people anywhere to go.
    Mr. Souder. Thank you. Mr. Shadegg.
    Mr. Shadegg. I want to begin, Mr. Hoover, with you. You 
responded to the chairman's question by saying that you operate 
under Federal permits and you cited a number of them. Could you 
provide the committee with copies of those Federal permits?
    Rev. Hoover. Yes, we can do that.
    Mr. Shadegg. That would be greatly appreciated.
    Rev. Hoover. May I respond to one thing. They changed over 
time, the location. For instance, at Ironwood now, that 
particular permit was negotiated with BLM, Department of 
Justice, Department of Interior and has $10 million worth of 
liability insurance--complex.
    Mr. Shadegg. Is it safe to assume that each of these 
permits specifically authorizes you to go out and place water 
in these locations?
    Rev. Hoover. That is correct.
    Mr. Shadegg. Under a grant of authority and permission from 
the Federal Government.
    Rev. Hoover. The one exception is Cabeza Prieta National 
Wildlife Refuge, that has some water on the land, and in those 
locations, rather than us servicing those in the 
environmentally sensitive areas, they have some existing 
wildlife water locations that are marked with our 30 foot poles 
and blue flags, equipment that we supply to them.
    Mr. Shadegg. And it would be your testimony that you do not 
go into any Federal lands, either in violation of Federal 
environmental laws or without permit to go in and put the water 
there.
    Rev. Hoover. That is absolutely correct. In addition to 
that, I would point out, since we have been looking at the 
impacts on the land, volunteers from our organization have 
probably removed over 200 cubic yards of trash this year.
    Mr. Shadegg. I actually read in your written testimony it 
was over 300 cubic yards of trash.
    Rev. Hoover. I am from Texas.
    Mr. Shadegg. And I compliment you--[laughter]--I hope you 
remove as much as you can, it is a serious problem.
    Some people would argue, and representatives of the Tribe 
came to me when I was at Organ Pipe and said they are concerned 
about the presence of water as a magnet drawing people and the 
trash that is brought. So to the extent that you remove trash 
as a complement to bringing water, I am certain that is an 
appreciated factor.
    With regard to your work on private land, your organization 
does no work on private land without first obtaining 
permission?
    Rev. Hoover. Oh, absolutely. We have permission slips from 
everybody.
    Mr. Shadegg. OK. Could you provide the committee with a 
copy of those as well, a copy of those permission slips?
    Rev. Hoover. [Nods head.]
    Mr. Shadegg. And the last one, you mention in your 
testimony, at least--I know you modified your testimony, but in 
your original submitted testimony, you mentioned a $25,000 
contract from Pima County.
    Rev. Hoover. Yes.
    Mr. Shadegg. Can you tell me what that contract calls upon 
your organization to do?
    Rev. Hoover. During the time of that contract, it was to 
identify sites, erect and maintain water stations in Pima 
County. Actually it was not limited to Pima County, but 
practically it was. They never specified that.
    Mr. Shadegg. Well, they do not have the authority to grant 
you permission----
    Rev. Hoover. The whole justification there is to reduce to 
very significant amount of cost to rehydrate people in the 
University Medical Center, etc.
    Mr. Shadegg. I understand that the ongoing activity of your 
organization is to put water out for humane reasons so people 
do not die.
    Rev. Hoover. Yes.
    Mr. Shadegg. At the same time, the rest of your testimony 
was that we need to revise our policy to get people back to 
ports of entry.
    Rev. Hoover. We will support anything that will get people 
out of the desert, so that there will be a lot less death out 
here and less damage to our desert.
    Mr. Shadegg. One question I wanted to ask, I think getting 
people to go back to ports of entry and come into the country 
under some sort of a legal framework is certainly a strategy 
that, quite frankly, to me makes more sense than driving them 
into remote area where they do environmental damage and die. 
But to that point, has your organization taken any efforts to 
deal with organized labor's opposition to any kind of a 
structured process by which non-U.S. citizens can come into the 
country and work?
    Rev. Hoover. We have no systematic contacts with organized 
labor. Of course, they have been in a change since January 2 
years ago, of now choosing, wishing to represent undocumented 
folks, etc. But we do not have any recent conversations with 
labor.
    Mr. Shadegg. Ms. Allen, I would like to ask you the same 
question. One of the problems that those of us who believe the 
guest worker program may be an appropriate way to address some 
of these problems, is opposition by organized labor across the 
country to any program that would allow guest workers in. As 
you know, Governor Cole advocated the guest worker programs to 
legalize or regularize the process by which people cross the 
border.
    Has your organization done anything to deal with that issue 
or have you stayed away with that political opposition?
    Ms. Allen. It is similar to Mr. Hoover, we have not had 
structured conversations with labor groups around the issue.
    Mr. Shadegg. So neither one of you has dealt with that 
aspect of those problems?
    Ms. Allen. No.
    Rev. Hoover. Congressman Shadegg, let me mention one other 
thing that is not evident anywhere else. Humane Borders and 
U.S. Border Patrol are working significantly with officials in 
Mexico to try to achieve consensus or efforts on their part to 
reduce the number of people that are dying in our desert as 
well; information programs, etc.
    Mr. Shadegg. Colonel Anderson, let me turn to you. As I 
indicated, I appreciate your testimony, it is helpful to me. 
You heard--you were present and heard Mr. Aguilar testify, 
basically a glowing picture about everything that is happening 
east of Nogales. You have been retired and on the border for a 
number of years. Can you give me information on whether you see 
the problem getting better or getting worse?
    Colonel Anderson. It is getting worse. I have right here, 
this same committee back in 1999, April 27th, had a hearing I 
believe it was--April 27th. And the person from Cochise County 
at that time was a Gail Griffin, who was a legislator in the 
House of Representatives in Arizona.
    Mr. Shadegg. I know her.
    Colonel Anderson. OK. And this was her testimony here. Last 
night, she said, ``Will you please take this and give this to 
the committee and say nothing has changed. I cannot change it, 
it has just gotten worse.'' And in my briefcase are papers and 
documents and everything else, some of it from the Border 
Patrol, indicating that it is getting much worse.
    Mr. Shadegg. Mr. Chairman, I would like to put that 
testimony into the record. I would also like the Colonel to at 
least summarize it briefly.
    Colonel Anderson. Basically it is everything I have said 
but 4 years old. I have submitted testimony several times, I 
merely had to update mine, and it has just gotten worse. It is 
getting worse every day. Now these groups that are forming for 
civil defense or protection of the border that some people 
allege may be vigilantes or militia types, they are merely 
reacting to the vacuum. They see nothing going their way and 
they are very frustrated.
    We are hopeful that someone will step in and make them not 
necessary.
    Mr. Shadegg. Is it your opinion that in reacting to the 
vacuum, they are trying, nonetheless, to abide by existing laws 
or is it your belief that they are operating outside the law?
    Colonel Anderson. No, they are attempting in every way to 
abide by existing laws. I have personally helped write the 
concept paper for the Tombstone one that is called Civil 
Homeland Defense Corps. What we did was we made sure that 
everyone has to go, who volunteers to be a participant, must go 
through a concealed weapons course, not to get weapons 
training, but to be forced to go through an FBI background 
check. Their purpose is to deter, not to arrest, not to 
apprehend. That is not the purpose of that particular group.
    Another group seems merely to document, to provide you 
information, problem the American public information of what is 
going on that may not be reported properly.
    Another group is from Texas called Ranch Rescue, that is a 
different group, they have been a little more aggressive. Now 
we do not affiliate with them whatsoever.
    But there is a fourth group, I received message traffic, a 
fourth group is asking to startup also in a similar vein.
    Now this is getting worse and worse and worse, it is not 
getting better.
    I would like to add, if I could, one thing--you mentioned 
the guest worker program, in reviewing the data, many of us 
down there tried to figure out what to do in that regard and 
what we have done is talk to those American business people or 
citizens who for some reason uniquely work in Mexico. They are 
guest workers in Mexico. A typical case would be a veterinarian 
who takes care of the cattle problem on one side or the other. 
We asked him to bring his stuff and there are programs called 
FM-2 and FM-3 sanctioned by the Mexican government, that they 
use for American citizens or others to go to be guest workers 
in Mexico. I would submit that the committee might want to pull 
this data, review those documents and those procedures and 
methodologies and that would be a very good turnaround as a 
fair play way to do business, because the documentation is 
rather severe, but it does work and that might be the way to go 
about things.
    Mr. Shadegg. Ms. Salcido and Mr. Toro, I want to thank you 
for your testimony, it is precisely what I hoped to get into 
the record to document the deep concern of the people of the 
Tohono O'odham Nation with regard to drug problems. It seems to 
me that is a grave concern and a legitimate concern and an 
obligation of the Federal Government to participate in that.
    Do you see--when you say that--Ms. Salcido, in your 
testimony, children as young as 8 and 9 years old that are 
recruited to watch for law enforcement agents and then paid in 
drugs, do you see those children then using the drugs or is it 
that those drugs are in quantities that they become sellers of 
the drugs? And is this a growing problem or is it sort of an 
episodic thing that is not as significant?
    Ms. Salcido. It is steadily growing. They are users, but 
they also become sellers. And it has hit our schools, which 
affect the other children, who would have to say no. We are 
trying very hard with our children to say no to drugs.
    But it is getting worse, and I just feel that most likely 
what happens when you put the fence in the Organ Pipe, it is 
going to filter through. Again, Meneger's is right there, we 
are going to get hit first. The same thing as on the other side 
of Organ Pipe, they are going to get hit also, because--you 
indicated you had toured the area, well we are on the other 
side, east of there. And we are just in harm's way, and as I 
say, it is a hop, skip and jump from where we are at.
    It is a corridor and it is an area where we just, as of 
last night, 500 immigration people, IAs came through. Well, we 
do not know how many of those 500 were carrying guns, we are 
not aware of what is happening in the desert area, we are 15 
miles from Gu Vo District's border and the Mexican border and 
that 15 miles is saying that we are the ones that are going to 
get hit first, along with the other district.
    We are one of three the chairman referred to that we wanted 
the gates open so we can have members go in and out for 
ceremony purposes. But we have now come to say no, we do not 
want it no more. Why? Because it is damaging not only the land, 
not only the desert land, it is damaging our lives by our 
children being utilized to be able to be scouts basically for 
them, not knowing any better. They use the concept of 
threatening your family, threatening your life. Again, to an 8 
or 9 year old, when $100 is given to them, that is a lot of 
money.
    And we are very concerned, if you are going to put a fence 
up, put it all the way. If you are going to help us to do 
anything, with all these things that are happening, you know, 
put some funding in the area that we need it. We can talk about 
all the things that are coming up, well the safety of the 
United States and inner America, you know, we are the first 
ones to get hit and it makes us feel like we are second class 
citizens and it makes us feel like we are expendable. And that 
is not right, because we are citizens of these United States, 
even though we were here first, but we try to cooperate, we try 
to utilize all the laws that would benefit not only our people 
but also the rest of the United States.
    Mr. Shadegg. My last question, you may have heard me relate 
earlier that when I was at Cactus Pipe--Organ Pipe National 
Monument, I was told a story about a woman whose daughter I 
gathered was in her teen years, late teen, early 20's, had a 
friend who, for no explicable reason, had acquired a very 
expensive automobile and her mother cautioned her that she 
suspected that was as a result of her involvement in drug 
activity. Have you heard of other incidents, does that sound 
familiar, is that a believable story, is that a recurring theme 
that you see here?
    Ms. Salcido. Yes, it is. There are a lot more stories out 
there that you have not even heard. Five minutes of testimony 
just does not do it justice, to give information that you need 
to know.
    Mr. Shadegg. No.
    Ms. Salcido. There are a lot of things like people who come 
through, who use sophisticated--the drug cartels use 
sophisticated communications equipment. And I would use myself 
as an example. I was home before I got this job, staying home, 
close to the border and all the runners coming through, I would 
report suspicious vehicles coming through or heavy looking 
suspicious vehicles.
    When they finally determined that it was me, they came to 
me and said we know you are the one that is telling. Why do 
they know that? Because a load came in with no lights, no 
nothing and it was dark, a dark vehicle, no moonlight, no 
nothing. It passed by, I happened to have gone outside at that 
time and saw this. I called. Well, they found out--they had 
that sophisticated communications equipment and said we heard 
you. Well, how did you hear me, it was a telephone call, it was 
in my house and my house is a traditional home which is about a 
foot of mud, you know. It is not concrete or whatever. But you 
cannot hear that. The only way you can do that is scanning. 
They have all these things that they utilize.
    One of things that we are really scared about, another 
thing, was the drug war--not the drug war, but horses coming in 
with hoof and mouth disease and all these other--chemical 
warfare, I should say, that are coming through too. That is 
scary because of our animals. We live by--some of our ranchers 
live by their cattle. Those are some of the things that we are 
afraid of that is going to happen. And we are the last ones to 
be able to receive any kind of funding to ensure that it would 
close off any activity that comes through.
    The Police Department has testified to you concerning 
things that they are encountering in that area. We have done 
the same thing just outside of Meneger's, which is about a 
quarter of a mile from there, a large ditch that the water runs 
through. If you go any time throughout the day into that area, 
you will see backpacks, beds, anything that the IAs bring 
across for sleeping or to eat or whatever. They kind of set up 
places there and the trash that they accumulate there.
    Those are some of the things that we have to deal with. The 
vehicles that they come in and abandon in the different areas, 
the bikes, the all terrain vehicles, you name it, it is there.
    We also have had airplane incursions that have come across 
and also with the situation I indicated in my testimony, it is 
in the military. And it is very scary when things like that 
happen to people who just live there. The children are not 
playing out there, the mothers cannot allow their children out 
in their front yard. We have to be worried to do that, because 
of all the gunfires that happen.
    Meneger's is a paved road, it is not in very good condition 
now, but it is paved so you can drive it. It is the closest to 
the border, it is accessible where there is no--they are 
available, the police officers or even the drug people, the 
narcs we call them, are stationed all over the place, but it is 
like they have to be stationed in a mountain area to see the 
valley area and also it takes awhile to come down. It is not 
something--you can see from it far away, but it takes awhile to 
come down, when we talk about the roads there at the border. 
They climb the mountain and they sit there and they watch. But 
we do not have the surveillance everywhere that everyone else 
has.
    Fencing the area you talked about, they are open, they come 
right through. There are a lot of things that I could tell you.
    Mr. Shadegg. You are an eloquent spokesman and you have 
done a fine job of adding to that 5 minutes. We very, very much 
appreciate the information.
    Mr. Souder. Mr. Anderson, I had a question about these 
different groups and certainly--I mean I understand the 
frustration that people have. One of the things that--and 
certainly there are neighborhood watches all over America to 
protect neighborhoods. The question is it is a fine line and it 
is legal to own a gun and it is in an organized effort where it 
is public, you are able to do these kind of watches.
    But what we have seen--most of the Democratic members of 
this committee represent major metro areas. Elijah Cummings, 
who is the ranking Democrat represents inner-city Baltimore 
where drug dealers torched the home of the Dawson family 
burning the mom and the five kids inside, who were--I guess she 
had reported the drug dealers. It happens multiple times. Danny 
Davis, who is on this committee, represents the south side of 
Chicago. One of the things that has happened there is gangs 
have grown up to provide protection and has run into additional 
problems.
    We have also seen, and we are dealing with this right now 
on the Columbia. Understanding the motivation, but how do you 
not have this slide into chaos?
    Colonel Anderson. Well, I cannot answer that question, no 
one can. What we can say is that given the vacuum, given the 
failure of agencies at all levels, from Federal to local, to 
step in the breach and solve the problem, the citizenry on its 
own has deemed it necessary for their own safety and well-
being, to do something. Now so far--and I anticipate--I would 
like to say I would anticipate that in the future there will 
not be a problem and there has not been. They have not shot 
anybody, have not done anything and I do not believe that is 
going to happen. But it does allow for an accident, an 
unintended consequence. All of those things can happen.
    Recently, we had a representative, House Majority Leader 
Randy Graff, has introduced into the House a proposal, it will 
probably come again next year, to have a volunteer type of 
group like that under the auspices of the Arizona DPS, 
Department of Public Safety, Highway Patrol, to bring all these 
groups together and give them ``some adult leadership'' and I 
strongly recommend that is the way to go. There are those that 
do not want to have that because they do not want to have 
anything to do with these things, but if you do nothing, the 
vacuum will attract something and you may not like what it 
attracts.
    So you spoke earlier, 5 years, things will get better. We 
do not have 5 years, we really do not. It is getting worse and 
worse. And these groups are an outgrowth of that. We can fix it 
or we can stand around and wait for it to happen. We prefer of 
course that we do not do that.
    Each one of these groups right now has no intention 
whatsoever of doing anything illegal. That is my view of the 
ones that I know of. I cannot speak for other States or 
anything else. But we watch it very carefully. I am not a 
member of one of the groups, but I do watch them because I have 
seen this coming, I spent all my life overseas mostly be it 
South America or the Far East or the Middle East, Egypt or any 
place else, and these things can get out of control if the 
government does not do its job. And that is what we have here.
    Mr. Souder. Rev. Hoover, I am just kind of curious, I know 
that you view as part of your religious calling to help those 
who are potentially in distress. Do you also do things to 
encourage them to follow the law?
    Rev. Hoover. Well, we----
    Mr. Souder. Or do you believe in effect it is an unjust 
law, therefore, it does not need to be followed?
    Rev. Hoover. I do not think that is the issue. The issue 
right here is to rescue, which means to remove from imminent 
peril, and the people are in peril in our desert precisely 
because we have incrementally moved the migration farther and 
farther. The assumption from INS was that they would not make 
the desert trek, I was told it is an unintended consequence. I 
said yes, it is deadly, we are going to try to do something 
about it in our neighborhood.
    Mr. Souder. Will you also speak out for enforcement of the 
laws?
    Rev. Hoover. I think that was in my opening remarks, that 
we are also speaking out clearly for Mexico to accept 
responsibility for allowing these--you know, you go over here 
and you interview a 15 year old Mayan beauty queen who thinks 
she is going to be in Las Vegas in 2 hours and that is wrong. 
And the country of Mexico has a moral obligation to inform its 
people what they are about to encounter.
    Mr. Souder. Have you ever done anything at the border to 
help warn people coming across, do you have people posted who 
would say look, do not come?
    Rev. Hoover. Sir, I have met with six Cabinet officers of 
the government in Mexico City, I meet with officials down here, 
spoke with the Under Secretary of Foreign Relations who was in 
Tucson Thursday night, with the Ambassador, who is over all the 
consulates. I am working feverishly to try to reduce--to 
produce migrant safety.
    Mr. Souder. I also want to thank the witnesses from the 
Tohono O'odham because it was very specific information. Do you 
believe, Mr. Toro, that if you had protection and more Border 
Patrol, that you in fact would have a reduction in people going 
through your ranch and immediate area?
    Mr. Toro. Definitely. The concern right now is that there 
is not enough Border Patrol agents out there to cover the whole 
Nation. On our outfit there, in the past, illegal immigrants 
have come walking through our ranch area requesting food and 
water and for the most part, we have not denied them any food 
or water, but it becomes tedious at times when they get word 
back to other immigrants on the southside saying we know a 
place north of the border that will give you food and what-not, 
but then it also burdens our family with the budget, because we 
are not a rich farm, we are not there to feed--we will 
definitely give them water.
    Just last Sunday before I left the ranch, I left about 3 
p.m., and my sister had told me that shortly after I left there 
was 17 vehicles came up behind me carrying immigrants also. So 
yes, more agents would probably deter the immigrant issue 
coming north of the boundary.
    Mr. Souder. Well, I thank each of you for your testimony.
    Mr. Shadegg. Based on your questioning of Mr. Hoover, I 
just wanted to--with regard to enforcement of the law, Mr. 
Hoover, do you occasionally come upon undocumented aliens 
crossing the desert when you are putting out your water?
    Rev. Hoover. Yes, sir.
    Mr. Shadegg. And when you do, do you advise the Border 
Patrol?
    Rev. Hoover. Not every time. Most of the time it turns out 
that way. If we encounter someone that has come out to the 
road, they are actually looking for help usually. Now there 
have been occasions when we have found folks and said do you 
know what you are doing, do you know where you are, etc. Yes, 
we do. Well, OK, be careful because they may kill you. But 
Border Patrol agents will confirm that we have called in dozens 
of times and effected a number of rescues, including medical 
rescues from the desert. It is not our job to enforce----
    Mr. Shadegg. Right. But as I understand your question, if 
they are looking to be rescued, you advise the Border Patrol.
    Rev. Hoover. Absolutely.
    Mr. Shadegg. If they are not looking to be rescued, they 
are looking to get on in----
    Rev. Hoover. On in is a relative concept out here, so we 
ask them do you have water, do you need some food, do you have 
any clue where you are. I have talked to people that were 
rescued, oh well, we are going this way 3 hours and we will be 
in Phoenix. No, sir, you will not. I will get the map out and 
say you are right here, you are only--how long you been 
walking, so forth. So we call Border Patrol.
    But that is a negotiated kind of a thing. I want to make 
sure that they have some concept of who they are, where they 
are, what is going on. We will not make any phone calls, we 
will not transport anyone, we have never done that. But we do 
not notify every contact that we have. Most of the time when we 
encounter somebody on the road though, they are looking for 
help.
    Mr. Shadegg. I appreciate your candor.
    Mr. Souder. Thank you. And there are no easy answers to the 
border questions and the numbers are in dispute. I do feel it 
is important to state on the record that it is indisputable 
that as a whole, we have made progress on the border and we 
have made progress on the narcotics question. That does not 
account for specific zones. It is clear when we address some 
progress in some zones, it moves to other zones and our 
responsibility as the Federal Government is then to back up. If 
we switch more pressure in some zones, it is also our 
responsibility to have a responsible enforcement legal system. 
At the same time, it is our obligation to enforce the law.
    We have seen a reduction nationwide in drug use, it is 
fairly significant and it is becoming consistent, that means 
less is coming in. We have seen crime rates drop in some areas 
and when you look at the border as a whole, we have made 
progress.
    We have, probably due to rising unemployment in the United 
States, seen some drop in the--do not assume that everything 
you have just seen is the only way we have to count people who 
are coming across. Sometimes, bluntly put, the word of mouth is 
less accurate than the counters when you move through like 
WalMarts or others and some of those are mobile. I believe we 
have made some progress but I believe there are huge gaping 
holes, many of those gaping holes are in Arizona.
    If you are in a home that is being overrun with bullets 
going around, I can understand you are tremendously unhappy. 
Same thing with the ranchers and we will continue to try to 
address it in as fair a way as possible. But there are tens of 
thousands of people in other parts of the United States who 
also are endangered nightly because of the drug traffic, 
because of the crime in their neighborhoods and it is a balance 
that we have to do as far as resources. People want roads, 
people want prescription drugs, people want to make sure we are 
secure of terrorism and we are doing the best we can.
    I came down here today to hear first-hand the pressures. 
There are obviously intense disagreements on how to handle this 
in Arizona inside the different areas themselves, difficult 
policy questions on wilderness areas, non-wilderness areas. The 
unions in my district, I have a very heavily unionized 
district, hate the concept of visa or work permits. It drives 
down the wage rates for the union groups, there is no question. 
On the other hand, the manufacturers in my district are 
desperate to have the labor, if they need the labor, in order 
to keep the companies competitive in the United States. That 
puts tremendous pressure on your homes and your families in the 
midwest and we have to come up with equitable ways.
    And one of the ways to do that is to listen to each other, 
try to talk it through and come to as fair and just solutions 
as we can and spare as many lives as possible. And today, your 
testimony is helping us do that.
    And with that, we appreciate everyone who has been in 
attendance as well. The hearing stands adjourned.
    [Whereupon, at 2:15 p.m., the hearing was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T7703.103

[GRAPHIC] [TIFF OMITTED] T7703.104

[GRAPHIC] [TIFF OMITTED] T7703.105

[GRAPHIC] [TIFF OMITTED] T7703.106

[GRAPHIC] [TIFF OMITTED] T7703.107

[GRAPHIC] [TIFF OMITTED] T7703.108

[GRAPHIC] [TIFF OMITTED] T7703.109

[GRAPHIC] [TIFF OMITTED] T7703.110

[GRAPHIC] [TIFF OMITTED] T7703.111

[GRAPHIC] [TIFF OMITTED] T7703.112

[GRAPHIC] [TIFF OMITTED] T7703.113

[GRAPHIC] [TIFF OMITTED] T7703.114

[GRAPHIC] [TIFF OMITTED] T7703.115

[GRAPHIC] [TIFF OMITTED] T7703.116

[GRAPHIC] [TIFF OMITTED] T7703.117

[GRAPHIC] [TIFF OMITTED] T7703.118

[GRAPHIC] [TIFF OMITTED] T7703.119

[GRAPHIC] [TIFF OMITTED] T7703.120

[GRAPHIC] [TIFF OMITTED] T7703.121

[GRAPHIC] [TIFF OMITTED] T7703.122

[GRAPHIC] [TIFF OMITTED] T7703.123

[GRAPHIC] [TIFF OMITTED] T7703.124

[GRAPHIC] [TIFF OMITTED] T7703.125

[GRAPHIC] [TIFF OMITTED] T7703.126

[GRAPHIC] [TIFF OMITTED] T7703.127

[GRAPHIC] [TIFF OMITTED] T7703.128

[GRAPHIC] [TIFF OMITTED] T7703.129

[GRAPHIC] [TIFF OMITTED] T7703.130

[GRAPHIC] [TIFF OMITTED] T7703.131

[GRAPHIC] [TIFF OMITTED] T7703.132

[GRAPHIC] [TIFF OMITTED] T7703.063

[GRAPHIC] [TIFF OMITTED] T7703.064

[GRAPHIC] [TIFF OMITTED] T7703.065

[GRAPHIC] [TIFF OMITTED] T7703.066

[GRAPHIC] [TIFF OMITTED] T7703.067

[GRAPHIC] [TIFF OMITTED] T7703.068

[GRAPHIC] [TIFF OMITTED] T7703.069

[GRAPHIC] [TIFF OMITTED] T7703.070

[GRAPHIC] [TIFF OMITTED] T7703.071

[GRAPHIC] [TIFF OMITTED] T7703.072

[GRAPHIC] [TIFF OMITTED] T7703.073

[GRAPHIC] [TIFF OMITTED] T7703.074

[GRAPHIC] [TIFF OMITTED] T7703.075

[GRAPHIC] [TIFF OMITTED] T7703.076

[GRAPHIC] [TIFF OMITTED] T7703.077

[GRAPHIC] [TIFF OMITTED] T7703.078

[GRAPHIC] [TIFF OMITTED] T7703.079

[GRAPHIC] [TIFF OMITTED] T7703.080

[GRAPHIC] [TIFF OMITTED] T7703.081

[GRAPHIC] [TIFF OMITTED] T7703.082

[GRAPHIC] [TIFF OMITTED] T7703.083

[GRAPHIC] [TIFF OMITTED] T7703.084

[GRAPHIC] [TIFF OMITTED] T7703.085

[GRAPHIC] [TIFF OMITTED] T7703.086

[GRAPHIC] [TIFF OMITTED] T7703.087

[GRAPHIC] [TIFF OMITTED] T7703.088

[GRAPHIC] [TIFF OMITTED] T7703.089

[GRAPHIC] [TIFF OMITTED] T7703.090

[GRAPHIC] [TIFF OMITTED] T7703.091

[GRAPHIC] [TIFF OMITTED] T7703.092

[GRAPHIC] [TIFF OMITTED] T7703.093

[GRAPHIC] [TIFF OMITTED] T7703.094

[GRAPHIC] [TIFF OMITTED] T7703.095

[GRAPHIC] [TIFF OMITTED] T7703.096

[GRAPHIC] [TIFF OMITTED] T7703.097

[GRAPHIC] [TIFF OMITTED] T7703.098

[GRAPHIC] [TIFF OMITTED] T7703.099

[GRAPHIC] [TIFF OMITTED] T7703.100

[GRAPHIC] [TIFF OMITTED] T7703.101

[GRAPHIC] [TIFF OMITTED] T7703.102


</pre></body></html>
